         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       Better Enforcement Oversight
       Needed for Major Facilities with
       Water Discharge Permits in
       Long-Term Significant Noncompliance

       Report No. 2007-P-00023

       May 14, 2007
Report Contributors:               George Golliday
                                   Renee McGhee-Lenart
                                   Laura Tam
                                   Andrew Creath
                                   Dan Engelberg




Abbreviations

DMR           Discharge Monitoring Report
ECHO          Enforcement and Compliance History Online
EMS           Enforcement Management System
EPA           U.S. Environmental Protection Agency
NPDES         National Pollutant Discharge Elimination System
OECA          Office of Enforcement and Compliance Assurance
OIG           Office of Inspector General
OTIS          Online Tracking Information System
PCS           Permit Compliance System
QNCR          Quarterly Noncompliance Report
SNC           Significant Noncompliance




Cover Photo: Sloss Industries wastewater treatment facility.
             (Black Warrior RIVERKEEPER Website photo)
                       U.S. Environmental Protection Agency                                            2007-P-00023

                                                                                                        May 14, 2007

                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review             Better Enforcement Oversight Needed for
We undertook this review to        Major Facilities with Water Discharge Permits
assess oversight of major          in Long-Term Significant Noncompliance
facilities in long-term
significant noncompliance
with water discharge permit         What We Found
requirements. We sought to
determine if the U.S.              EPA did not provide effective enforcement oversight of major facilities with
Environmental Protection           National Pollutant Discharge Elimination System permits in long-term significant
Agency (EPA) and States are        noncompliance. While flexibility is required in a national program, EPA
taking timely and appropriate      inconsistently applied guidance defining timely formal actions. Also, EPA
enforcement actions against        guidance did not provide meaningful direction on what constitutes “appropriate”
facilities in long-term            actions. Moreover, for 21 of 56 facilities reviewed, EPA and States did not take
significant noncompliance.         suitable formal enforcement actions to address all instances of significant
                                   noncompliance. At the remaining 35 facilities, none of the actions we could
Background
                                   assess were timely based on criteria in EPA’s Enforcement Management System.
EPA has authorized 45 States
to administer the National         EPA and States also did not maintain complete and accurate records of National
Pollutant Discharge                Pollutant Discharge Elimination System compliance and enforcement activities.
Elimination System program,        Many region and State files were incomplete, and data in EPA’s information
including enforcement of           systems were incomplete and inaccurate. Further, regions and States did not
discharge permits. EPA still       report inspection-related violations in EPA’s Permit Compliance System. We also
maintains responsibility for       noted that bacteria exceedances are not required to be reported as significant
oversight and ensuring that        noncompliances.
Clean Water Act regulations
are enforced. According to         Timely actions could help minimize the millions of pounds of excess pollutants
EPA’s current guidance,
                                   released by these facilities. We estimate that up to 51 million pounds of excess
several basic oversight criteria
define a “well-performing”         pollutant loads were discharged from July 2002 through June 2005 by 44 facilities
compliance and enforcement         reviewed, representing loads that could be minimized.
program, including (1) timely
and appropriate enforcement         What We Recommend
response, and (2) accurate
recordkeeping and reporting.
                                   We recommend that the Assistant Administrator for the Office of Enforcement
For further information,           and Compliance Assurance clarify and implement guidance regarding facilities in
contact our Office of              significant noncompliance, implement a quality assurance program, and establish
Congressional and Public           controls allowing EPA leadership to identify significant noncompliance by
Liaison at (202) 566-2391.         bacteria-only violators. EPA disputed many of our findings, but stated general
To view the full report,
                                   concurrence with our recommendations and identified planned actions. However,
click on the following link:       the Office of Enforcement and Compliance Assurance’s planned actions generally
www.epa.gov/oig/reports/2007/      do not address the intent of our recommendations, and the issues are considered
20070514-2007-P-00023.pdf          unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          May 14, 2007

MEMORANDUM

SUBJECT:	        Better Enforcement Oversight Needed for Major Facilities with
                 Water Discharge Permits in Long-Term Significant Noncompliance
                 Report No. 2007-P-00023


FROM:	           Wade T. Najjum
                 Assistant Inspector General, Office of Program Evaluation

TO:	             Granta Y. Nakayama
                 Assistant Administrator, Office of Enforcement and Compliance Assurance


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. Accordingly,
the findings described in the report are not binding upon EPA in any enforcement proceeding
brought by EPA or the Department of Justice. This report represents the opinion of the OIG and
does not necessarily represent the final EPA position. Final determinations on matters in this
report will be made by EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $932,305.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0832
or najjum.wade@epa.gov; or Dan Engelberg, Director for Program Evaluation, Water Issues, at
(202) 566-0830 or engelberg.dan@epa.gov.
                Better Enforcement Oversight Needed for Major Facilities with 

               Water Discharge Permits in Long-Term Significant Noncompliance



                                Table of Contents 


Chapters
 1	   Introduction ...........................................................................................................      1         


              Purpose ..........................................................................................................    1             

              Background ....................................................................................................       1             

              Noteworthy Achievements..............................................................................                 5

              Scope and Methodology.................................................................................                5


 2	   Oversight Limited at NPDES Major Facilities in Long-Term SNC.....................                                             6         


              EPA Guidance Misinterpreted and Vague......................................................                           6

              Lack of Suitable Enforcement at 21 Facilities.................................................                        8

              Untimely Enforcement at 30 Facilities ............................................................                    8

              Timely Enforcement Helps Minimize Excess Pollutant Discharges................                                         9

              Conclusion......................................................................................................      9             

              Recommendation ...........................................................................................           10             

              Agency Comments and OIG Evaluation.........................................................                          10 


 3	   Incomplete and Inaccurate Records and Reporting Inhibit 

      EPA Oversight of NPDES Major Facilities ..........................................................                           11     


              Compliance and Enforcement Files Incomplete .............................................                            11 

              EPA’s Enforcement Data Systems Inaccurate ...............................................                            12 

              Many Violations Found During Inspections Not Reported in PCS .................                                       13 

              Bacteria Not Reported as SNC ......................................................................                  13 

              Conclusion......................................................................................................     14             

              Recommendations .........................................................................................            14             

              Agency Comments and OIG Evaluation.........................................................                          14 


 Status of Recommendations and Potential Monetary Benefits.................................                                        15




Appendices
 A    Details on Scope and Methodology.....................................................................                        16         


 B    Overall Agency Comments...................................................................................                   20         


 C    OIG Evaluation of Overall Agency Comments ...................................................                                23


 D    Detailed Agency Comments and OIG Evaluation...............................................                                   25         


 E    Distribution ............................................................................................................    43         

                                Chapter 1
                                 Introduction

Purpose
          We initiated this review to assess oversight of major facilities in long-term
          significant noncompliance (SNC) with National Pollutant Discharge Elimination
          System (NPDES) permits. The U.S. Environmental Protection Agency (EPA) has
          overall responsibility for implementing the NPDES program and ensuring
          adherence to Clean Water Act regulatory requirements. We sought to determine
          how well EPA is ensuring that timely and appropriate enforcement actions are
          taken against NPDES facilities in long-term SNC. We also sought to determine
          what excess pollutant loads could be minimized if facilities in long-term SNC for
          effluent violations achieved compliance.

Background
          The Clean Water Act authorizes the NPDES permit program. The program is
          designed to control water pollution by regulating point sources that discharge
          pollutants into surface waters of the United States. Point sources are discrete
          conveyances, such as pipes from municipal and industrial facilities or man-made
          ditches. These facilities are generally classified as major or minor, depending on
          size and nature of the discharges. For example, a major municipal treatment plant
          typically discharges one million gallons or more per day of wastewater.

          Facilities that intend to discharge pollutants into the Nation’s waters are required
          to obtain an NPDES permit. The permit sets limits on the amount of pollution a
          facility can discharge into waterbodies, to protect human health and aquatic
          resources. Federal regulations require permitted facilities to monitor discharged
          pollutants and periodically report those monitoring results to EPA or States using
          Discharge Monitoring Reports (DMRs).

          Noncompliance with permit requirements can pose risks to human health and the
          environment. Violations of pollutant permit limits can expose aquatic life and
          humans to excess levels of toxic or harmful pollutants. Similarly, failure to
          submit DMRs means risks to aquatic life and humans are unknown.

          EPA Oversight of NPDES Compliance and Enforcement Programs

          The EPA Office of Enforcement and Compliance Assurance (OECA) is
          responsible for ensuring that the regulated community complies with Federal
          environmental statutes, including the Clean Water Act. The Clean Water Act
          gives EPA authority to allow States to administer the NPDES program.


                                            1

Currently, 45 States administer the program, including compliance and
enforcement. Where the State is the administering agency, EPA has continuing
overall responsibility for implementing and overseeing the NPDES program. In
the remaining States, EPA is still the administering authority. For certain States,
including Oklahoma and Texas, EPA has compliance and enforcement authority
for some facilities while the States have that authority over others.

According to EPA’s current guidance, 1986 Revised Policy Framework for
State/EPA Enforcement Agreements, several basic elements define a "quality"
compliance and enforcement program, including:

   •	 Timely and appropriate enforcement response
   •	 Accurate recordkeeping and reporting

Compliance with the nation's environmental laws is the goal of enforcement.
Deterrence of noncompliance is achieved through: (1) a credible likelihood of
detecting a violation, (2) the speed of the enforcement response, and (3) the
likelihood and severity of the sanction. Enforcement is a vital part of encouraging
regulated entities to meet environmental obligations. Additionally, enforcement
levels the playing field with environmentally compliant companies and deters
those who might otherwise profit from violating the law.

Types of Noncompliance

Title 40, Code of Federal Regulations, Section 123.45(a)(2) requires EPA and
States to report when NPDES major dischargers are in noncompliance with their
permit conditions. Reportable noncompliance can include a violation of effluent
limits in NPDES permits, violations of enforcement orders or schedules for
compliance with permit conditions, failure to provide compliance schedule reports,
unauthorized bypasses or discharges, and failure to submit DMRs on time.

SNC is a subset of reportable noncompliance. SNC involves priority violations of
NPDES permit conditions that EPA believes merit special attention, including:

   •	 Violations of monthly and non-monthly effluent limits for two or more
      months during two consecutive quarterly review periods, by (a) 20 percent
      for toxic pollutants, such as metals; and (b) 40 percent for conventional
      pollutants, such as total suspended solids.
   •	 Non-effluent violations, such as bypasses or unpermitted discharges,
      which cause or have the potential to cause a water quality problem, such
      as beach closings.
   •	 Permit compliance schedule violations.
   •	 Reporting violations, including failure to submit timely DMRs (filing a
      DMR more than 30 days late or not at all).
   •	 Violations of existing enforcement orders, including judicial or 

      administrative orders. 



                                  2

There are approximately 6,400 active NPDES major facilities. About 4,800
facilities reported being in noncompliance for at least one quarter during our
12-quarter review period (July 2002 through June 2005). About 2,650 of those
facilities were reported to be in SNC for at least one quarter during the same time.

Enforcement Management System Criteria

EPA’s national guidance for developing and improving NPDES compliance
tracking and enforcement systems is called the Enforcement Management System
(EMS). According to the EMS, there are three levels of response to all violations.
For some violations, a response may not be necessary. The second level response
is an informal response. An informal enforcement response can be an inspection,
phone call, or a violation letter. Informal responses inform the permittee that the
Agency is aware that a violation occurred. The third level of response is a formal
action. A formal enforcement action:

       •	 Requires a facility to take action to achieve compliance.
       •	 Specifies a timetable.
       •	 Contains consequences for noncompliance that are independently
          enforceable without having to prove the original violations.
       •	 Subjects the facility to adverse legal consequences for noncompliance.

According to the EMS, facilities with SNC violations must receive a formal
enforcement action, from the administering authority, that is timely and
appropriate, or return to compliance within the quarter following the SNC
violation. If formal action is not taken, the State or EPA is expected to produce a
written record clearly justifying why an alternative action (other than a formal
action) was more appropriate. If the State, as the NPDES program authority, does
not take timely and appropriate formal enforcement action, EPA is expected to
take a formal enforcement action.

EMS states a timely formal enforcement action must be taken by the end of the
quarter following the SNC violation. For instance, if a facility experiences an
SNC violation in February of the first quarter, a formal enforcement must be
taken by the administering agency by June 30 of the second quarter.

EMS states an appropriate response for SNC is a formal action. The guidance
states an appropriate formal enforcement action is determined by its effectiveness
and whether the noncomplying facility returns to compliance as quickly as
possible. An appropriate action also establishes a deterrent to future violations
and promotes fairness of government treatment.

Compliance and Enforcement Data Systems and Reports

EPA and States use the Permit Compliance System (PCS) to manage and assess
compliance and enforcement program information. This includes such


                                 3

                   information as permit issuance, permit limits, facility monitoring data, and
                   enforcement and inspection activity for facilities regulated under the Clean Water
                   Act. EPA and States enter compliance and enforcement information directly into
                   the PCS database. For example, States enter DMR data and information
                   submitted by NPDES facilities into PCS. A few States submit DMR information
                   electronically.

                   The Online Tracking Information System (OTIS) enables EPA staff,
                   State/local/tribal governments, and Federal agencies to access enforcement and
                   compliance data from systems like PCS. The public can access the Enforcement
                   and Compliance History Online Website (ECHO),1 which provides similar data.

                   Each quarter, the States and/or EPA produce a Quarterly Noncompliance Report
                   (QNCR) from PCS. The report flags NPDES major facilities that were in
                   reportable noncompliance with permit requirements during the previous 6 months.
                   States and EPA regions use the QNCR to determine what actions to take at these
                   facilities. The QNCR encompasses a rolling 6-month period such that the QNCR
                   for the second quarter (April through June) captures reportable effluent violations
                   from January through June. The Watch List is an EPA management tool, not for
                   public access, that tracks facilities with serious or chronic noncompliance that
                   have not received formal enforcement action.

                   PCS reports effluent violations on the QNCR by using a computer comparison of
                   permitted effluent limits to a facility’s actual self-reported monitoring data from
                   DMRs. If those effluent violations are severe enough, the facilities should be
                   flagged as SNC for effluent violations. The QNCR is submitted to EPA
                   headquarters on the last working day of the second month following the QNCR
                   period.

                   Compliance Inspections

                   Inspections are another critical source of compliance and enforcement
                   information. During inspections, information is gathered to determine
                   compliance. Inspections include direct observations of facility operations and/or
                   conditions. Inspections allow EPA and States to determine reliability of a
                   permittee’s self-reported data. They also allow EPA to evaluate compliance with
                   permit conditions, applicable regulations, and other requirements. The Agency
                   goal is to have EPA and/or States annually inspect 100 percent of all NPDES
                   major facilities or equivalent coverage of a combination of major and priority
                   minor facilities.




1
    http://www.epa.gov/echo/.


                                                    4

Noteworthy Achievements

         OECA piloted the State Review Framework in 2004 to foster dialogue on
         enforcement and compliance performance that should lead to improved program
         management and environmental results. This framework involves a process for
         conducting performance reviews of enforcement and compliance activities in the
         States (as well as for non-delegated programs implemented by EPA regions).

         In January 2004, OECA initiated the “Watch List,” which tracks facilities with
         serious or chronic violations of environmental laws that have received no formal
         enforcement response. The Watch List for NPDES facilities uses existing data
         reported by EPA regions and States to PCS.

         EPA, in cooperation with State governments and the Environmental Council of
         the States, developed ECHO, which provides integrated compliance and
         enforcement information for approximately 800,000 regulated facilities
         nationwide. The site allows the public to find inspection, violation, enforcement
         action, informal enforcement action, and penalty information about facilities for
         the past 3 years.

Scope and Methodology
         We conducted our review from January 2005 through December 2006 in
         accordance with Government Auditing Standards, issued by the Comptroller
         General of the United States. We reviewed EPA’s oversight of NPDES major
         facilities in long-term SNC using the following quality elements in EPA’s 1986
         Revised Policy Framework for State/EPA Enforcement Agreements: (1) timely
         and appropriate enforcement response, and (2) accurate recordkeeping and
         reporting. We interviewed staff in OECA and Office of Water’s Office of
         Wastewater Management. We interviewed staff in selected EPA regions, as well
         as officials and staff in selected States.

         We selected 84 of the 132 facilities in long-term SNC, according to EPA data
         systems, in EPA Regions 4, 5, and 6 for our review. We reviewed available
         compliance and enforcement files to determine their accuracy and completeness
         for the 84 NPDES facilities in long-term SNC. We utilized data from PCS and
         OTIS to determine the excess pollutant loads released from facilities in long-term
         SNC for effluent violations. We evaluated the effectiveness of management
         controls and considered findings in prior EPA Office of Inspector General (OIG)
         reports.

         Details on our scope and methodology are in Appendix A.




                                          5

                                             Chapter 2
           Oversight Limited at NPDES Major Facilities
                       in Long-Term SNC

                  EPA did not provide effective enforcement oversight of major facilities in long-
                  term SNC with NPDES permits. EPA inconsistently interpreted guidance
                  defining timely formal actions. Also, EPA’s guidance does not provide a means
                  for determining the appropriateness of actions. Problems with EMS guidance
                  prevented us from determining whether enforcement actions taken were
                  appropriate. However, we found that for the 56 NPDES major facilities in long-
                  term SNC reviewed:2

                      •	 At 21 facilities, EPA and States did not take suitable formal enforcement
                         actions to address SNC violations during our review period.
                      •	 At the remaining 35 facilities, none of the actions that we could assess
                         were timely based on the criteria in EPA’s EMS.

                  Timely and appropriate formal enforcement actions are important to minimize
                  additional pollutants from being discharged into the Nation’s waters to ensure
                  protection of human health and the environment. We estimate that up to
                  51 million pounds of excess pollutant loads were discharged during our review
                  period by 44 facilities reviewed, and that represents loads that can be minimized.

EPA Guidance Misinterpreted and Vague

                  EPA did not consistently interpret its EMS guidance for timely actions, even
                  though EMS guidance is clear with regard to timeliness. Further, EMS guidance
                  is unclear regarding appropriateness of enforcement actions and is thus subject to
                  interpretation. This ambiguity prevented us from evaluating the appropriateness
                  of the EPA and State formal enforcement actions taken. However, we concluded
                  that EPA’s ambiguous guidance may result in inconsistency in interpretations
                  between regions and States. Flexibility is needed in any national enforcement
                  program. Nonetheless, definitions for program fundamentals such as the
                  timeliness and appropriateness of action are necessary to establish minimum
                  acceptable performance and oversight.




2
 Due to significant EPA data system errors for 27 facilities in Alabama, Michigan, and Texas, as discussed in
Chapter 3, we could only evaluate 57 of the 84 facilities selected for review for timely formal enforcement action.
We also eliminated one additional facility in Tennessee from our sample that was shown to be a minor facility by
OECA.


                                                          6

                EPA Inconsistently Interprets Guidance for Timely Actions

                During our review, we were given inconsistent interpretations of what EPA
                considers timely. In a 1999 EMS memo, OECA’s water enforcement division
                director wrote that for a formal enforcement action to be considered timely, it
                must be taken by the end of the quarter following the SNC violation. In other
                words, if a facility experiences an SNC violation in February of the first quarter,
                then a formal enforcement action must be taken by the administering agency by
                June 30 of the second quarter – the last day of the quarter – to be timely.
                Although we believe the policy in the EMS memo is clear on the definition of
                “timely,” and the memo has not been rescinded, EPA allows other interpretations.
                For example:

                    •	 In response to an earlier version of our report, EPA asserted that timely
                       enforcement actions could be 60 days later than the timely definition
                       above.

                    •	 In subsequent data submissions to the OIG, EPA noted that a timely
                       response must occur within 6 months of the facility appearing and
                       remaining on the QNCR. This implies EPA has up to a full year from the
                       time of an SNC violation to provide a response.

                EPA’s stated that “not only is there flexibility in the EMS language itself
                regarding timeliness, but the fact that the EMS is a guidance document and not a
                regulation infers flexibility.” However, that is inconsistent with written guidance
                in EMS, which provides a clear definition of timely.

                EPA Guidance Does Not Address Appropriateness of Actions

                EMS guidance states that the appropriate response to an SNC violation is
                a formal action that should ensure that the facility returns to compliance
                expeditiously, creates a deterrent effect, and is fair. However, the guidance does
                not state how expeditiously facilities should come back into compliance after an
                action is taken. In fact, EPA staff stated that “appropriate” is defined flexibly and
                a formal action can address the same violations for many years. Since EPA has
                no clear criteria, we could not determine if the formal actions taken were
                appropriate.

                We questioned whether the outcome of some formal actions was appropriate. For
                example, EPA took a formal enforcement action in 1988 against the East Chicago
                Sewage Treatment Plant.3 According to OECA, that action “renders all effluent
                exceedances (sic) resolved pending since that time.” East Chicago has been in
                SNC for effluent violations – including pollutants such as phosphorus, chlorides,
                and sulfates – in every quarter from 1996 to June 2005. During the 3 years of our
3
 EPA issued Pretreatment Administrative Orders on January 25, 1993, and September 20, 2004. The September
2004 order addressed pretreatment issues found during an audit.


                                                     7

                 review period, East Chicago discharged between 76,000 and 230,000 pounds of
                 excess phosphorus and between 12,000,000 and 38,000,000 pounds of excess
                 chlorides. We could not determine the excess loadings of sulfates. Seventeen
                 years after formal action, as of June 2005, the facility still had excess discharges
                 to waters that were currently impaired.

Lack of Suitable Enforcement at 21 Facilities
                 Of the 56 NPDES major facilities in long-term SNC that we were able to assess,
                 EPA and States did not take suitable formal enforcement actions to address all
                 SNC violations against 21 of them during the 3-year period July 2002 through
                 June 2005. Some facilities received informal actions, such as letters of violation.
                 According to the EMS, facilities with SNC violations must receive a formal
                 enforcement action, from the administering authority, that is timely and
                 appropriate, or return to compliance within the quarter following the SNC
                 violation. Specifically:

                      •	 Eight of the 21 facilities in SNC during our review had not received a
                         formal action as of June 2005, according to OECA.

                      •	 The remaining 13 facilities were operating under enforcement orders
                         issued prior to the time period, but these actions did not address all
                         violations for which the 13 facilities were in SNC.

                 For example, the Lafayette Sewage Treatment Plant in Tennessee received formal
                 action regarding only two of three pollutants for which it was in SNC. During our
                 review period, this facility was in SNC for effluent violations for six quarters for
                 ammonia-nitrogen, seven quarters for settleable solids, and two quarters for total
                 suspended solids. The Tennessee Department of Environment and Conservation
                 issued an Administrative Order in April 2002 to address ammonia-nitrogen and
                 total suspended solids violations. However, the Order did not address the
                 settleable solids violations. This facility discharged between 15,000 and 182,000
                 pounds of excess settleable solids from July 2002 to June 2005. The facility
                 discharges to a stream that is impaired for organic enrichment and low dissolved
                 oxygen, and Lafayette’s excess settleable solids discharges could be further
                 worsening the existing water quality impairments.

Untimely Enforcement at 30 Facilities
                 EPA and States took 57 formal enforcement actions to address SNC violations
                 between July 2002 and June 2005 at 35 facilities.4 We were able to assess 45 of


4
  Some facilities received more than one enforcement action. Thus, a facility may have had one action judged
untimely and another in which timeliness could not be determined. This explains the apparent inconsistency in the
total number of facilities associated with untimely actions and actions whose timeliness could not be determined.
A total of 35 facilities were included in the assessment.


                                                        8

                  the 57 actions at 30 facilities for timeliness and, based on EMS criteria, none of
                  the 45 was timely.

                  For example, EPA issued an Administrative Order against ConocoPhillips
                  Company on August 14, 2003, to address effluent violations for selenium
                  beginning July 2002. The action was untimely because it was not taken by
                  December 2002 (the end of the next quarter), as required by EMS. According to
                  PCS, the facility continued to exceed selenium permit limits through June 2005.
                  Our calculations show that this facility discharged about 950 pounds of selenium
                  above its allowable permit level between July 2002 and June 2005. Selenium is
                  toxic to aquatic life and some wildlife and harmful to humans.

                  We could not determine the timeliness of the remaining 12 formal actions at
                  10 facilities because available information was flawed. Specifically, the
                  enforcement actions did not explain what SNC violation was being addressed or
                  when the SNC violations occurred. Without this information, we would not
                  determine whether the action was timely. For example, the Consent Decree
                  issued against the City of Columbiana Wastewater Treatment Plant in Alabama
                  on December 10, 2003, simply accelerates an existing compliance schedule for a
                  Consent Order issued on March 21, 2002. This action does not directly link to an
                  SNC violation. Therefore, we could not address timeliness.

Timely Enforcement Helps Minimize Excess Pollutant Discharges
                  Timely actions are important because they can help deter or minimize
                  environmental impact. The sooner SNC is identified and formal enforcement
                  actions taken, the sooner the excess pollution can be controlled. We estimate that
                  up to 51 million pounds of excess pollutant loads were discharged from July 2002
                  through June 2005 by 44 of the facilities we reviewed.5 Seventeen of those
                  facilities discharged excess pollutants into already impaired waters.

Conclusion
                  EPA has not provided its regions and States with clear and consistent guidance for
                  taking timely and appropriate enforcement actions. Incomplete and misleading
                  guidance reduces the effectiveness of regions’ and States’ oversight of NPDES
                  facilities. At the Agency level, we concluded that EPA does not provide effective
                  oversight over the regions and States. Noncompliance with permit requirements
                  can pose risks to human health and the environment through exposure to excess
                  levels of toxic or harmful pollutants.




5
  Due to a lack of data in EPA’s data system, we could only calculate a range of pollutant discharges for some
facilities. See Appendix A for more details.


                                                         9

Recommendation
         We recommend that the Assistant Administrator, Office of Enforcement and
         Compliance Assurance:

         2-1	   Clarify and implement the EMS guidance to ensure that timely and
                appropriate formal enforcement actions are taken against NPDES facilities
                in SNC.

Agency Comments and OIG Evaluation

         EPA agreed to clarify the EMS guidance by rescinding the 1999 OECA
         memorandum in conflict with the EMS. EPA’s planned action is to eliminate the
         guidance that clarifies when timely enforcement action should be taken. While
         reducing the ability to measure the effectiveness of enforcement actions increases
         the flexibility to define all actions as timely, it does not meet the intent of the
         recommendation. EPA’s detailed response and OIG’s evaluation are in
         Appendices B, C, and D. The OIG has incorporated technical corrections and
         clarifications from EPA’s response into the final report as appropriate.




                                          10

                               Chapter 3
  Incomplete and Inaccurate Records and Reporting
    Inhibit EPA Oversight of NPDES Major Facilities

         Records of compliance and enforcement activities were often incomplete and
         inaccurate. Specifically:

            •	 Many region and State files were incomplete.

            •	 Data in EPA’s information systems were incomplete and inaccurate.

            •	 Regions and States did not report inspection-related violations in PCS,
               although EPA required such reporting.

         An accurate history of the compliance and enforcement activities at a facility is
         important for oversight and making future enforcement decisions. The lack of
         accurate information inhibits EPA’s ability to provide effective oversight to
         NPDES major facilities and thus protect human health and the environment from
         excess levels of toxic or harmful pollutants. During our review, we also found
         that bacteria exceedances are not required to be reported as SNC, but we think
         such reporting should be considered.

Compliance and Enforcement Files Incomplete

         Many EPA and State compliance and enforcement files were incomplete for
         NPDES major facilities. We reviewed EPA and State files to determine if they
         were complete by comparing enforcement information from EPA and State file
         reviews to formal enforcement actions listed in PCS/OTIS. Some of the
         information in the compliance and enforcement files did not match the
         information recorded in EPA’s data systems. Table 3-1 on the following page
         shows the results of comparing enforcement files with EPA’s data system
         information. Additionally, 12 formal enforcement actions in the EPA and State
         files were not listed in EPA’s data systems. We also found one action listed in
         OTIS for which we could find no other evidence in either PCS or EPA and State
         files. Incomplete files and data systems prevent EPA from having the needed
         information to provide effective oversight.




                                         11

Table 3-1: Completeness of EPA and State Enforcement Files
                                Actions         No. of those                     No. of those
                              reported by      actions found       Percent      actions found        Percent
    Region       State         PCS/OTIS         in EPA files      complete       in State files     complete

Region 4      Alabama               8                 5              63%               8              100%
              Tennessee             7                 4              57%               4              57%
                Total              15                 9              60%              12              80%

Region 5      Indiana               4                 2              50%               1              25%
              Michigan              4                 2              50%               1              25%
                Total               8                 4              50%               2              25%

Region 6      Oklahoma             12                 10             83%           5 (of 9)*          55%*
              Texas                22                 12             55%           5 (of 10)*         50%*
                Total              34                 22             65%          10 (of 19)*         53%*
*When calculating completeness of State files, we did not consider actions taken against facilities for which
EPA retains primary enforcement authority.
Source: EPA OIG review


EPA’s Enforcement Data Systems Inaccurate
                  EPA’s data systems used to track NPDES enforcement program are inaccurate.
                  EPA’s data systems do not accurately reflect the SNC status of facilities. Once a
                  formal enforcement action is issued for an SNC violation, a facility should be
                  designated as “resolved pending” for that violation, according to Title 40, Code of
                  Federal Regulations, Section 123.45. However, OECA states that Regions 4, 5,
                  and 6 (the three regions reviewed) do not designate facilities in “resolved
                  pending.” Thus, facilities in these regions may appear to remain in SNC status in
                  EPA’s data systems for a long time despite operating with an existing
                  enforcement action.

                  EPA’s data system incorrectly classified Michigan facilities in SNC for DMR
                  violations due to data system errors in Michigan. These errors have existed since
                  2003. EPA’s PCS data system showed that 30 facilities from Michigan were in
                  long-term SNC. However, OECA reviewed the facilities’ status and determined
                  that 27 of the facilities were not actually in SNC.6 OECA stated that Michigan
                  was having problems entering DMR information into PCS in a timely manner.
                  Staff from Michigan Department of Environmental Quality also noted that their
                  data system was not capable of correctly communicating with PCS and that SNC
                  data was not available through their system at the time we interviewed them.
                  However, the data entry and transmission problems continue, which seriously
                  compromises EPA’s oversight of Michigan’s NPDES facilities.


6
 We excluded 25 Michigan facilities with significant data errors from our analysis. Two other facilities, one from
Alabama and one from Texas, were also excluded for similar reasons. See Appendix A for more details.


                                                           12

          In a related matter, EPA staff stated that once a facility receives a violation for
          submitting DMRs late, that violation will continually show as a violation in
          EPA’s data systems until regions or States manually correct the problem. EPA
          needs to ensure its data systems are accurate so it can provide proper oversight to
          regions and States.

Many Violations Found During Inspections Not Reported in PCS
          Despite EPA requirements, most EPA regions and States do not enter into PCS
          violations found during inspections. OECA reported that no States in EPA
          Regions 1, 2, 5, 7, 9, and 10 reported these violations in Fiscal Year 2005.
          Inspections allow EPA and States to determine the reliability of the permittee’s
          self-reported data and evaluate compliance with permit conditions and applicable
          regulations. Entering these violations into PCS allows EPA and States to track
          these violations and report them.

          EPA currently requires data entry of violations found during inspections (called
          single-event violations) for NPDES major permittees in PCS in the single event
          category. However, most States are not performing this procedure. Staff from
          EPA Region 4 stated that EPA does not ensure that States enter single event
          violation data from inspections. Staff from EPA Regions 5 and 6 acknowledged
          that entry of single event violations is required. Failing to enter inspection-related
          violations in PCS may prevent these types of violations from being identified and
          acted upon.

Bacteria Not Reported as SNC
          We noted numerous and significant exceedances of bacteria permit limits at 37 of
          84 facilities we reviewed. Almost 75 percent of the exceedances would be
          classified as SNC using the criteria for conventional pollutants. The
          violations ranged up to 59,000 percent of the permit limit. None of these
          violations was reported as SNC in PCS or OTIS because bacteria are not a
          pollutant subject to SNC criteria. Since these violations are not classified as SNC,
          they would likely not be reported on the QNCR that regions and State use to
          address facilities with significant violations.

          Although SNC reporting is not required, bacteria are a leading cause of water
          quality impairments across the nation. When present at levels exceeding water
          quality standards, bacteria can make swimmers ill and contaminate shellfish for
          human consumption. Our review only discovered the significant bacteria
          violations because those facilities had SNC violations for other pollutants. In the
          absence of other SNC violations, EPA and States may not address significant
          bacteria violations.

          Because this issue was outside the scope of our review of long-term SNC, we did
          not conduct a separate review focused on the extent of bacteria-only violations


                                            13

         and the adequacy of the response to them. However, it is enough of a concern
         that it warrants further review by OECA.

Conclusion
         While EPA has overall responsibility for implementing and overseeing the
         NPDES program, EPA generally has to rely on the States for information. EPA
         cannot attest to the reliability of records and data for those facilities in long-term
         SNC. Incomplete and inaccurate records and information represent a
         management control weakness. EPA cannot rely on NPDES enforcement and
         compliance data from its internal systems being complete or accurate. Also,
         enforcement and compliance records maintained by regions and States are
         incomplete and inaccurate. OECA needs to implement a quality assurance
         program that, at a minimum:

             •	 Assesses accuracy of region and State compliance and enforcement files.
             •	 Verifies status of facilities in SNC.
             •	 Verifies that formal actions taken are correctly entered into EPA systems.
             •	 Assures reporting issues (with Michigan and others) are resolved or reports
                annotated to disclose known inaccuracies.
             •	 Verifies that all EPA regions and States are entering violations found as a
                result of inspections in PCS.

Recommendations

         We recommend that the Assistant Administrator, Office of Enforcement and
         Compliance Assurance:

         3-1	     Implement a quality assurance program addressing the completeness of
                  compliance and enforcement files, accuracy of EPA data systems, and
                  reporting in PCS the violations found during inspections.

         3-2	     Establish controls allowing EPA leadership to identify significant
                  noncompliance by bacteria-only violators for enforcement action.

Agency Comments and OIG Evaluation
         EPA generally concurred with our recommendations. However, OECA’s
         response that its existing actions and processes provide a reasonable amount of
         quality assurance is not responsive to Recommendation 3-1. We consider the
         issue unresolved. For Recommendation 3-2, we accept OECA’s response.
         OECA will need to provide us with an action plan and milestone dates for when
         the proposed actions will occur. EPA’s detailed response and OIG’s evaluation
         are in Appendices B, C, and D. The OIG has incorporated technical corrections
         and clarifications from EPA’s response into the final report as appropriate.



                                           14

                                 Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                          Subject                         Status1        Action Official           Date      Amount      Amount

    2-1       10    Clarify and implement EMS guidance to ensure            U        Assistant Administrator,
                    that timely and appropriate formal enforcement                  Office of Enforcement and
                    actions are taken against NPDES facilities in SNC.               Compliance Assurance

    3-1       14    Implement a quality assurance program addressing        U        Assistant Administrator,
                    the completeness of compliance and enforcement                  Office of Enforcement and
                    files, accuracy of EPA data systems, and reporting               Compliance Assurance
                    in PCS the violations found during inspections.

    3-2       14    Establish controls allowing EPA leadership to           O        Assistant Administrator,
                    identify significant noncompliance by bacteria-only             Office of Enforcement and
                    violators for enforcement action.                                Compliance Assurance




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                                15

                                                                                      Appendix A

                    Details on Scope and Methodology

We conducted our review from January 2005 through December 2006 in accordance with the
Government Auditing Standards, issued by the Comptroller General of the United States.
We interviewed staff in OECA and the Office of Water’s Office of Wastewater Management to
determine applicable compliance and enforcement guidance and criteria for EPA regions and
States. We reviewed NPDES major facilities in long-term SNC. We classified facilities as being
in long-term SNC if they had been in SNC for 8 of 12 quarters from the third quarter of 2002 to
the second quarter of 2005 in PCS. However, due to continual updating of EPA data systems,
7 of the facilities selected were classified in SNC for only 7 of 12 quarters by the end of our field
work.

We selected EPA Regions 4, 5, and 6 for review because they have the highest concentration of
NPDES major permits with 3,506 facilities (55 percent of the universe). Further, of EPA’s
10 regions, they are ranked high in the number of long-term SNC facilities (see Table A-1).

Table A-1: Number of SNC Facilities/Ranking of Regions
                   No. of Long-Term
    Regions          SNC Facilities        Ranking
    Region 4               38                 4th
    Region 5               51                 2nd
    Region 6               43                 3rd
Source: EPA OIG Review

Although EPA Region 2 had the highest number of long-term SNC facilities, many were in the
territory of Puerto Rico, and we chose not to review that region due to travel and time
constraints. We interviewed staff in all three regions selected for review. We also interviewed
EPA Region 7 staff during the preliminary research phase of our review.

We reviewed 84 of the 132 facilities in long-term SNC in EPA Regions 4, 5, and 6 according to
PCS. These 84 facilities represent about 1.3 percent of the total number of active NPDES major
facilities from 2002 through 2005. We selected facilities by choosing two States from each of
the three EPA regions reviewed (see Table A-2). We interviewed staff in those States to gather
information about compliance and enforcement programs.

Table A-2: Facilities Reviewed by State
                                      No. of Facilities
    Regions             States          Reviewed
    Region 4          Alabama                 8
                      Tennessee              12
    Region 5          Indiana                 8
                      Michigan               30
    Region 6          Oklahoma                4
                      Texas                  22
Source: EPA OIG Review




                                                      16
We reviewed compliance and enforcement files for 84 NPDES facilities in long-term SNC. We
reviewed files to confirm enforcement actions taken by EPA and States as reported in PCS and
OTIS, determined whether timely formal enforcement actions were taken at facilities, and
determined the completeness of the compliance and enforcement files. To do this, we verified the
SNC status and formal actions taken at each facility through OTIS. We relied on the
classification system in PCS and OTIS to indicate whether an action was formal or informal.
During file reviews, we documented only those actions classified as formal – such as
administrative orders and consent orders – and compared them to information from PCS and
OTIS to confirm that our data were complete. Finally, we compared the formal actions taken
against each facility with the facility’s SNC status in PCS and OTIS to determine if timely
formal enforcement actions were taken consistent with criteria from EPA’s EMS document.
We could not assess the appropriateness of enforcement actions because the EMS does not state
how expeditiously facilities should come back into compliance after an action is taken. This
ambiguity prevented us from evaluating the appropriateness of the EPA and State formal
enforcement actions taken.

Of the 84 initial facilities we evaluated, 25 of the 30 facilities in Michigan were excluded from
our timeliness analysis due to EPA data system errors. Additionally, one facility each in Texas
and Alabama were excluded for similar issues. We also excluded one facility because it was a
minor facility even though OECA’s data systems showed it as a major facility in SNC. We
analyzed the remaining 56 facilities to determine if timely formal enforcement actions were
taken to address SNC. Due to EPA data system inaccuracies, 2 of the 56 facilities that were
classified as major facilities in PCS were actually minor facilities for part of our 3-year
evaluation period. As such, we evaluated these facilities only for that period of time when the
facilities were considered major facilities.

Because 21 facilities did not have actions taken during our review period, we only identified and
analyzed formal enforcement actions at the remaining 35 facilities. We reviewed 69 actions
from these 35 facilities. We excluded 12 of those 69 actions from our analysis for timeliness
(8 addressed sludge or sludge reporting violations that were not directly related to the SNC
violations, 3 addressed citizen complaints at specific facilities, and 1 represented a parallel action
that allowed the State to assume primary enforcement authority from EPA). Thus, we evaluated
57 formal actions.

To evaluate timeliness for the 57 formal actions, we reviewed each individual action found
during the file reviews and from OTIS to determine the following information: (1) the date the
formal action was taken, (2) the specific SNC violations the action addressed, and (3) the dates
the violations occurred. We then determined the length of time between the dates the actions
were taken and the dates the violations occurred. We compared the violations and formal actions
to the 3-year compliance status history as shown in OTIS for each facility on a quarterly basis.
We compared the length of time between violation and action with EPA’s EMS criteria for
timeliness. If the length of time exceeded the time period allowed by the criteria, the action was
found to be untimely. Although we conducted an extensive file review on each facility, we did
not have enough information on 12 formal actions to determine whether they were timely.




                                                 17

We analyzed data from OTIS and PCS to determine the excess pollutants released from facilities
in long-term SNC for effluent violations. We calculated the excess pollutant load by
determining the pollutant load each facility is permitted to discharge and subtracting that load
from the pollutant load each facility actually discharged when it violated its permit limits. We
determined the pollutant load actually discharged from facility DMR information by multiplying
the actual effluent flow times the actual effluent pollutant concentration times a constant of 8.34.
EPA uses this formula to determine mass-based permit limitations and was reviewed by staff
from EPA’s Office of Wastewater Management. We calculated the permitted pollutant load for
each facility using the same formula and each individual facility’s pollutant permit limits. We
summed the daily excess pollutant loads for each facility over the 3-year time period from the
third quarter of 2002 through the second quarter of 2005.

In certain cases, OTIS did not report actual effluent pollutant concentrations. However, the
percentage by which the permit limit was exceeded was reported in OTIS. In this case, we back-
calculated the actual effluent pollutant concentration using the pollutant permit limit and the
percentage by which the permit limit was exceeded as reported by PCS. Since the percentage
exceedance is calculated by PCS automatically using the data as reported by each facility on its
DMRs, this method did not compromise the accuracy of the actual effluent pollutant
concentration. Five of the 84 evaluated facilities were listed as SNC for effluent violations, but
OTIS had no information indicating which effluent limits were violated or by what percentage.
For this reason, we did not include those five facilities in our analysis.

Due to varying availability of information for each facility, we calculated both minimum and
maximum excess pollutant loads. If the required information for each facility – including design
and actual reported flows, permit effluent limits, and actual effluent concentrations – was
available in the detailed facility reports from PCS, then it was not necessary to determine
minimums and maximums. However, if the only information available was the design flow,
permit limit, and the percentage by which the facility exceeded its permit limit from the detailed
facility report, then we calculated both minimum and maximum excess pollutant loads. This is
because the 3-year compliance status by quarter only lists the highest monthly percentage by
which the facility violated its permit limits in that quarter. The magnitude of any violations in
other months for that quarter was unknown. Both minimum and maximum excess pollutant load
were calculated to account for this uncertainty.

While interviewing EPA region and State staff, we also sought to obtain information on what
tools and best practices are available to help address facilities in long-term SNC.

Management Controls

We identified the following management controls as applicable to our objectives:

       Effectiveness of Program Operations: We evaluated the effectiveness of the
       compliance and enforcement program by determining if EPA and States were providing
       timely and appropriate enforcement actions to facilities in long-term SNC, and if EPA
       provided effective oversight to selected regions and States. Details on what we found are
       in Chapter 2.



                                                 18

       Validity and Reliability of Data: We evaluated the validity and reliability of PCS/OTIS
       data by comparing it with the data found in EPA regions and State files. We compared
       the number and types of formal enforcement actions in PCS/OTIS for the 84 facilities we
       reviewed with the information found in EPA and State files. Details on what we found
       are in the Chapter 3.

       Compliance with Applicable Laws and Regulations: In our evaluation, we determined
       whether regions and States were following EMS guidance in addressing facilities in SNC
       with timely enforcement actions. We found problems in the guidance provided. Details
       on what we found are in Chapter 2.

Prior Coverage

We reviewed the following prior EPA OIG audits as they pertained to our review:

       •	 Water Enforcement: State Enforcement of Clean Water Act Dischargers Can Be
          More Effective, 2001-P-00013, August 14, 2001.

       •	 North Carolina NPDES Enforcement and EPA Region 4 Oversight, 2000-P-00025,
          September 28, 2000.

       •	 Kansas National Pollutant Discharge Elimination System Program, E1HWF7-07
          0022-8100089, March 31, 1998.

       •	 Region 10's National Pollutant Discharge Elimination System Permit Program,
          E1HWF7-10-0012-8100076, March 13, 1998.




                                             19

                                                                                   Appendix B

                        Overall Agency Comments
                                     March 30, 2007



MEMORANDUM

SUBJECT:      OECA Comments on Draft Report, “Better Oversight Needed for Major
              Facilities with Water Discharge Permits in Long-Term Significant
              Noncompliance”

FROM:         Granta Y. Nakayama
              Assistant Administrator

TO:           Dan Engelberg
              Director, Water Issues, Office of Program Evaluation
              Office of Inspector General

     The Office of Enforcement and Compliance Assurance (OECA) appreciates the opportunity
to review and comment on the February 28, 2007 Office of Inspector General (OIG) draft report
titled, “Better Oversight Needed for Major Facilities with Water Discharge Permits in Long-
Term Significant Noncompliance.” This draft report was revised after OIG received OECA’s
extensive comments in October 2006 on its initial August 2006 draft report. The revised draft is
an improvement over the initial draft. However, despite exhaustive efforts by OECA and
Regional staff to provide well-documented comprehensive comments and to be available for
follow-up consultation, significant factual inaccuracies and misinterpretations remain. These
undermine the credibility of OIG’s analysis and diminish the value of its recommendations.
These include:

   •	 Inaccurate Interpretation of National EPA Enforcement Guidance and Policy. Despite
      OECA’s attempts to clarify the operation of its guidance and policy, OIG fails to
      recognize the difference between regulatory requirements and EPA guidance and, as a
      result, applies EPA’s timely and appropriate enforcement response guidelines as a rigid
      requirement. OIG’s draft report fails to consider the deliberate flexibility provided to
      Regions and states in EPA’s guidance resulting in inaccurate OIG findings such as, “at 22
      of the 57 facilities reviewed, EPA and the states did not take sufficient formal
      enforcement action,” and “at the remaining 35 facilities, none of the actions were timely.”
      In stark contrast, OECA’s assessment of the 57 facilities indicated that the vast majority
      (approximately 53 or 93%) of facilities included in the OIG review received an adequate
      response to address the SNC violations.

   •	 Inaccurate Data Analysis. At least seven facilities (three in Region 4 and four in Region
      6) should not have been included in OIG’s analysis because they were not classified as


                                               20

       major facilities during all or part of the evaluation period and, therefore, would not have
       been screened for SNC violations by EPA. A request for change in a facility’s status is
       submitted in writing from a Region to OECA’s Office of Compliance. Status change
       dates are not archived in EPA’s Permit Compliance System (PCS) or Facility Registry
       System; they are documented in manual files maintained in the Regional offices. OECA
       provided information on this issue in its October 2006 response to OIG’s original report,
       yet OIG did not remove these facilities from its February 2007 draft report. OIG
       continued to misinterpret data in its analysis and inaccurately concluded that these
       facilities were majors. In other instances, OIG failed to acknowledge that many SNC
       violations reviewed were already addressed under existing enforcement orders and
       compliance schedules (i.e., the facility was in “resolve pending” status in PCS), and thus
       did not require any additional enforcement. Lastly, facilities were included in the
       analysis even though a known state-wide data system problem resulted in incorrect SNC
       determinations.

   •	 No Acknowledgement of Ongoing Efforts to Improve Records and Reporting. OIG’s
      draft report fails to consider OECA’s ongoing efforts to work with Regions and states,
      through the State Review Framework (SRF), the Watch List, and ECHO processes, to
      improve record keeping and reporting associated with compliance monitoring and
      enforcement activities. OECA believes that its existing efforts are responsive to OIG
      recommendation 3-1 to implement a quality assurance program addressing the
      completeness of compliance and enforcement files and recommendation 3-2 to address
      significant bacteria violations. By not recognizing these recent efforts to establish better
      management controls and accountability, the draft report leaves the impression that
      OECA is not actively addressing issues such as timely enforcement and accurate
      recordkeeping of enforcement files.

    Despite numerous concerns with the underlying analysis in this draft report, OECA largely
accepts OIG’s three recommendations and, as noted in the bullet above, is already implementing
two out of the three recommendations. Of the remaining recommendation, 2-1, to clarify and
enforce EMS guidance, OECA is prepared to implement the part of the recommendation that will
clarify the guidance. In response, OECA commits to rescind the 1999 OECA memorandum that
conflicts with the NPDES Enforcement Management System (EMS). This will be discussed
with the Regional NPDES Enforcement Branch Chiefs at the national NPDES meeting in April,
2007. OECA does not, however, concur with the balance of recommendation 2-1, to enforce the
EMS, as the EMS does not impose a set of enforceable standards.

    This draft report reflects continuing problems with the overall OIG evaluation process,
including: poor communication during the analysis leading to the use of incomplete and/or
inaccurate information, broad findings that are not supported by the data used, lack of
acknowledgment of ongoing efforts by OECA, Regions, and states to address the problem being
evaluated, exclusion of relevant information which would directly impact findings and
recommendations, and failure to weigh the benefits of OIG’s recommendations against the
resource burdens and procedural barriers they will entail and the competing needs and demands
they will displace. A specific example of poor communication during this evaluation is the fact
that even after receiving detailed written comments from OECA and having face-to-face



                                                21

meetings to discuss those comments, OIG staff never contacted EPA staff with any follow-up
questions or clarifications in the course of re-writing the draft report. OECA would like to work
with the OIG to improve communication and the overall evaluation process.

    Attached are OECA’s detailed comments on the analysis, findings, and recommendations in
the February 28, 2007 draft report. If you have any questions, please call Mark Pollins at
202-564-4001.

Attachments

cc: 	   Walker Smith, OCE
        Randy Hill, OCE
        Mark Pollins, OCE
        Michael Stahl, OC
        Lisa Lund, OC
        David Hindin, OC
        Doug Mundrick, Region 4
        Cheryl Newton, Region 5
        Mike Michaud, Region 6




                                               22

                                                                                      Appendix C

        OIG Evaluation of Overall Agency Comments
OECA took issue with the overall OIG evaluation process, expressing concerns about the
conclusions reached in analysis, poor communications during the evaluation, and the belief that
data collected was incomplete or inaccurate. OECA also disagreed with the OIG assessment that
its oversight needed improvement. Specifically OECA stated that:

   •	 OIG inaccurately interpreted National EPA Enforcement Guidance and Policy.
   •	 OIG included facilities that were not classified as major facilities during all or part of the
      evaluation period.
   •	 OIG did not acknowledge OECA’s ongoing efforts to improve its records and reporting.

Despite OECA’s numerous concerns with the underlying analysis, OECA stated it generally
accepted OIG’s recommendations and was in the process of implementing them. OECA’s
detailed responses, along with the OIG’s evaluation, are provided in Appendix D.

The detailed OECA response focuses on denying existence of oversight issues, while agreeing to
implement most of the recommended actions. OECA’s criticism of the evaluation for poor
communication and faulty analysis is rooted in OECA’s rationale that written policies can be
ignored or interpreted to allow OECA “flexibility” to claim timely and appropriate performance
under almost all circumstances. OIG understands OECA’s rationale; we simply do not accept
that it is valid. OIG’s conclusion that OECA has not acted in a timely manner is based on
written policy and criteria that OECA prefers to ignore. In fact, one of OECA’s corrective
actions will be to rescind the policy memorandum clarifying the standard for timely enforcement.

The OECA response is illustrative of the control environment that allowed the conditions
addressed in the report to exist. Management is responsible for communicating the objectives of
internal control and ensuring the organization is committed to sustaining an effective internal
control environment. Management’s philosophy and operational style set the tone within the
organization culture. Culture is defined by management’s leadership in setting values of
integrity and ethical behavior but is also affected by the relationship between the organization
and central oversight agencies. Management’s commitment to establishing and maintaining
effective internal control should cascade down and permeate an organization’s control
environment, which aids in the successful implementation of internal control systems. In our
opinion, the OECA response is a reflection of weakness in the overall management control
environment of the organization.

Inaccurate Interpretation of National EPA Enforcement Guidance and Policy

This is a disagreement over how to measure EPA’s effectiveness ensuring the compliance with
the Clean Water Act and how accountable for achieving results it is. EPA’s desire for total
flexibility undermines the use of internal controls to ensure timely and appropriate enforcement
response. OECA interprets the national enforcement guidance and policy, EMS, as granting it



                                                23

total flexibility about when and how to enforce against significant noncompliance. Using this
interpretation, OECA concluded that its response was “adequate” 93 percent of the time.

We carefully applied OECA’s own guidance set out in the EMS to determine how well EPA
regions and States are fulfilling their enforcement responsibilities. The EMS represents OECA’s
own enforcement principles for EPA regions and States. The EMS provides clear and consistent
guidance on what constitutes a timely enforcement response. In brief, the EMS states that a
formal enforcement response must be taken before the end of the quarter following the quarter in
which EPA and/or States designate a facility in SNC. The memorandum OECA wants to rescind
clarifies this point.

Inaccurate Data Analysis

OECA’s response actually addresses the inaccurate data in their systems, rather than inaccurate
data analysis on the part of OIG. OECA objected to the records of some of the facilities we
included in our sample taken from their data system, PCS. We agree with OECA that their
systems contain inaccurate data and recommended that they develop a quality assurance program.

OECA requested that seven facilities in our review should be removed. We will remove one of
the seven. Decherd WWTP in Tennessee was not designated a major discharger until after our
study period. We have removed Decherd from our findings. We had included this facility in our
study because EPA listed this minor facility as being in SNC during our study period in the PCS
database. Also, Windermere and Munford Lagoon were not major facilities during all of our
review period although PCS showed them in significant noncompliance during that time. Both
facilities were in significant noncompliance for at least three quarters after they became majors.
Since the facilities did not receive timely action while they were major facilities, we will keep
them in our analysis. We disagree with EPA about the other four facilities.

OECA stated that we failed to acknowledge many SNC violations reviewed that were already
addressed under existing enforcement orders and compliance schedules. On the contrary, we
considered whether a facility was in “resolved pending” as indicated by EPA data systems and
data submitted to us by OECA.

OECA also stated that we retained several facilities in our review in spite of a known state-wide
data system problem that resulted in incorrect SNC determinations. Again, we disagree. We did
not evaluate the timeliness of enforcement actions at 25 of the 30 Michigan facilities due to the
state-wide data problem. According to Region 5 staff, Michigan’s data system problems related
only to discharge monitoring reporting and compliance schedule reporting. For that reason, we only
included facilities in our analysis that had other types of violations. The five Michigan facilities we
analyzed had effluent violations for at least two consecutive quarters. Even though we did not
evaluate the timeliness of enforcement actions at the 25 facilities, we did report on the obvious
oversight problems that exist from a State having system with unreliable data for several years.

No Acknowledgement of Ongoing Efforts to Improve Records and Reporting

We included the efforts OECA mentioned in its response in the Noteworthy Achievements
section of the report.


                                                24

                                                                                               Appendix D

      Detailed Agency Comments and OIG Evaluation
    OECA Response,                 OECA Comments
#     Section/Page          (Attachment 1 of its response)                          OIG Response
1   At a Glance,   OECA’s specific responses to each of the           See responses below.
    page 1         findings and recommendations are detailed
                   below. The description of the
                   recommendations should be modified
                   accordingly.
2   At a Glance,   OECA questions the accuracy of OIG's               Our selection of facilities used to calculate
    page 1         estimate of the pounds of excess pollutant         the estimate of pollutants discharged was
                   released. As discussed below, there is             not flawed. Our estimates of excess
                   sufficient reason to believe that the OIG's        pollutants released represent actual effluent
                   selection of facilities used to calculate a        pollutant concentrations as reported by
                   hypothetical estimate of pollutants discharged     NPDES facilities and recorded in EPA’s
                   is flawed due to OIG's inaccurate                  database, OTIS.
                   interpretations of EPA's national enforcement
                   guidance. Further, the OIG erroneously             We analyzed data from OTIS and PCS to
                   assumes that when an enforcement action is         determine the excess pollutants released
                   concluded, compliance is immediate.                from facilities in long-term SNC for effluent
                   • To illustrate, the OIG presents an               violations. We calculated the excess
                         estimate of the range of pollutants in       pollutant load by determining the pollutant
                         excess of permit limits released by using    load each facility is permitted to discharge
                         data calculated for 45 facilities that the   and subtracting that load from the pollutant
                         OIG found to be in SNC for the 3-year        load each facility actually discharged when
                         period from July 2002 through June 2005.     it violated its permit limits. We determined
                         However, many of these facilities were       the pollutant load actually discharged from
                         operating under consent orders that          facility DMR information by multiplying
                         provided a schedule for return to            the actual effluent flow times the actual
                         compliance. As violating facilities          effluent pollutant concentration times a
                         complete the necessary plant upgrades        constant of 8.34. EPA uses this formula to
                         allowing them to meet the original permit    determine mass-based permit limitations
                         limits, pollutant reductions are achieved.   and was reviewed by staff from EPA’s
                         Because of the infrastructure changes that   Office of Wastewater Management. We
                         are often needed to correct compliance       calculated the permitted pollutant load for
                         problems, the OIG cannot expect that         each facility using the same formula and
                         pollutant reductions will be immediately     each individual facility’s pollutant permit
                         gained upon completion of an                 limits. We summed the daily excess
                         enforcement action.                          pollutant loads for each facility over the
                                                                      3-year time period from the third quarter of
                                                                      2002 through the second quarter of 2005.
                                                                      As such, our estimates would implicitly
                                                                      consider any reductions being achieved as a
                                                                      result of consent orders or plant upgrades.

                                                                      Our analysis does not expect that pollutant
                                                                      reductions are the immediate result of
                                                                      enforcement actions. We did the analysis to
                                                                      determine the impact on the environment
                                                                      when a facility is not in compliance with its
                                                                      NPDES permit. It may take years for a
                                                                      facility to come back into compliance under



                                                    25

    OECA Response,                   OECA Comments
#    Section/Page              (Attachment 1 of its response)                               OIG Response
                                                                            a consent decree. During that time, a
                                                                            facility with effluent violations is still
                                                                            discharging pollutants into the water above
                                                                            its permitted limits.
3   At a Glance,        There is an error in the shaded background          The final report was revised to reflect this
    page 1              summary - EPA "authorizes" (not "delegates")        comment.
                        states to administer the NPDES program.
4   Chapter 1, page 1   EPA Oversight of NPDES Compliance and               The statement itself is an accurate
                        Enforcement Program, p. 2: The placement of         representation of information presented in
                        the statement, "EPA is expected to take formal      the EMS. The statement was moved to the
                        enforcement action when states fail to take         section discussing the EMS criteria on
                        timely and appropriate action" in the first         page 3.
                        paragraph of this section, which discusses
                        Clean Water Act (CWA) authority and the
                        NPDES program, implies that the CWA
                        mandates when EPA shall take enforcement
                        action. The CWA does not address this issue.
5   Chapter 1,          Furthermore; the statement inaccurately             The EMS was finalized in 1989, at least
    pages 1-2           represents EPA guidance on this issue (see the      2 years after the Revised Policy Framework
                        August 25, 1986 James Barnes Memorandum             for State/EPA Enforcement Agreements
                        to the Regions, "Revised Policy Framework           (Barnes Memo). The EMS constitutes a
                        for State/EPA Enforcement Agreements                system for translating compliance
                        (Barnes Memo)). The Barnes Memo                     information into timely and appropriate
                        recommends consultation with a state to             enforcement actions. Also, EMS provides
                        determine whether the state is moving               the flexibility for each administering agency
                        expeditiously to resolve the violation -- it does   to develop management procedures which
                        not contemplate automatic formal Federal
                                                                            are best suited to its operations and
                        action once a recommended deadline for state
                                                                            resources with the goal of most efficiently
                        action has passed. The Memo specifies that
                                                                            translating compliance information into
                        timeframes are not intended to be rigid
                        deadlines for action. It explains that because      timely and appropriate enforcement action.
                        authorized states have primary responsibility       Thus, the flexibility desired by OECA was
                        and EPA clearly does not have the resources         implicitly considered during development of
                        to take action on or review in detail any and       the EMS and the language regarding timely
                        all violations, EPA will circumscribe its           and appropriate formal enforcement actions
                        actions to certain cases and areas and will take    to address SNC violations.
                        action based on specific listed factors in the
                        Memo. Further, the Barnes Memo                      Any ambiguity regarding timely and
                        acknowledges that because EPA will not, in          appropriate language in the EMS was
                        most cases, receive real time data, Regions are     resolved in an October 6, 1999, OECA
                        not expected to be able to take direct              memorandum that provided the Water
                        enforcement action following the exact same         Enforcement Division’s official
                        timeframes as those that apply to the               interpretation of the EMS’s language
                        administering agency. Finally, the Barnes           regarding the “begin date” for the period
                        Memo does not require formal enforcement            allowed for a timely and appropriate
                        action in every instance. The Memo                  enforcement response to a SNC violation.
                        establishes that an appropriate response is to      The memo further states that EMS requires
                        be determined by the administering agency           that a formal action must be taken to
                        based upon a consideration of what is needed,       prevent the SNC violation from being
                        and that the form of the enforcement response       reported on a second QNCR and, under
                        must achieve compliance. The redraft
                                                                            QNCR rules, this can be accomplished only
                        suggested below is an accurate interpretation
                                                                            if the enforcement action is taken during
                        of EPA guidance and does not imply, as does
                                                                            this "following" quarter. Further, the use of
                        OIG's draft language, that immediate federal


                                                        26

    OECA Response,                     OECA Comments
#    Section/Page                (Attachment 1 of its response)                            OIG Response
                        action is required when the period for timely       this “begin date” is consistent with the
                        state actions has passed, or that such action       timeframe for violation status calculations
                        must be formal.                                     PCS makes for the QNCR and SNC.
                        • Delete "EPA is expected to take formal
                             enforcement action when states fail to         No change made.
                             take timely and appropriate action" from
                             first paragraph on page 2."
                        • Add new paragraph after the two bullets
                             in the second paragraph of this section
                             that includes "EPA's guidance indicates
                             that EPA may consider taking direct
                             enforcement action where: a state
                             requests EPA action, where the state
                             enforcement response is not timely or
                             appropriate, in cases or program areas
                             setting national precedents, or where
                             there is a violation of an EPA order or
                             consent decree. In deciding whether to
                             take enforcement EPA will consider
                             whether: the case is nationally significant,
                             risk or damage to the environment or
                             public health is significant, the violator
                             stands to gain significant economic
                             benefit, or there are repeat patterns of
                             violations and violators."
                        • Add a new paragraph for remaining text
                             beginning, "Compliance with the nation's
                             environmental laws. . ."
6   Chapter 1, page 2   Types of Noncompliance, p. 2: OIG's                 The report was revised to include the
                        description of the QNCR regulations does not        detailed citation.
                        distinguish between reportable noncompliance
                        (RNC) and significant noncompliance (SNC).
                        Reporting RNC at NPDES majors is a
                        regulatory requirement. Identifying,
                        addressing, and tracking SNC violations (a
                        subset of RNC) is not a regulatory
                        requirement - it is a management tool used to
                        prioritize violations and focus enforcement
                        resources. In contrast to a regulatory
                        requirement, there is inherent flexibility – by
                        design -- in the application of a
                        policy/management tool.
                        • "Revise citation as follows” . . .
                             Section 123 .45(a)(2)."
7   Chapter 1,          Enforcement Management System Criteria, p.          According to the EMS, facilities with SNC
    pages 2-3           3: In this chapter, OIG acknowledges the            violations must receive a formal
                        flexibility within the EMS for the permitting       enforcement action from the administering
                        authority to exercise discretion in deciding        authority that is timely and appropriate, or
                        which of a range of possible responses (no          return to compliance within the quarter
                        response, informal action, formal action) to        following the SNC violation. If formal
                        take in addressing violations, including SNC        action is not taken, the State or EPA is
                        violations. That acknowledgment does not            expected to produce a written record clearly
                        carry through the end of page 3 or through the      justifying why an alternative action (other



                                                        27

    OECA Response,                       OECA Comments
#    Section/Page                (Attachment 1 of its response)                              OIG Response
                        rest of the draft report. For example in             than a formal action) was more appropriate.
                        numerous places on pages 6 - 8, OIG's                If the State, as the NPDES program
                        findings are based solely on whether "formal"        authority, does not take timely and
                        enforcement actions were taken – in contrast         appropriate formal enforcement action, EPA
                        to its earlier acknowledgement on p. 3 that a        is expected to take a formal enforcement
                        range of responses are available. The EMS            action. Our file and database review at
                        includes the expectation that SNC violations         EPA and States found no written
                        receive a formal enforcement action.                 justifications for not taking formal
                        However, it also acknowledges that there may         enforcement actions.
                        be circumstances when formal enforcement
                        action is not taken and the administering            No change made.
                        agency is expected to have a written
                        justification for why the alternative action was
                        more appropriate.
                        • "Replace "formal enforcement action"
                              with "enforcement action" at page 3 and
                              pages 6 - 8.
8   Chapter 1, page 3   Compliance and Enforcement Data Systems              While our original statement is accurate, we
                        and Reports, p. 4: The second and fourth             made these revisions in our final report.
                        sentences in the third paragraph need to be
                        rewritten to distinguish between
                        "noncompliance" and "reportable
                        noncompliance."
                        • Revise second sentence as follows: "The
                              report flags NPDES major facilities that
                              were in reportable noncompliance with
                              permit or enforcement order requirements
                              during the previous six months."
                        • Revise fourth sentence as follows:
                              "reportable effluent violations."
9   Attachment 1,       Scope and Methodology, p. 5, 6, 8: The total         Appendix A was revised so that the
    Chapter 1, page 3   of 132 facilities stated in paragraph 2 on p. 5      facilities in Table A-1 add to 132 facilities.
                        as well as in paragraph 4 on p. 15 in Appendix
                        A does not match the total of 128 facilities         We evaluated the timeliness of actions at
                        reflected in Table A-1 in Appendix A.                35 total facilities. Some facilities received
                        Further, at pages 6 and 8 the following              more than one enforcement action. Each
                        sentences are inconsistent:                          action was assessed individually, thus one
                        • “At the remaining 35 facilities, none of           facility may have had an action judged
                              the actions that we could assess were          untimely and another action for which we
                              timely based on the criteria in EPA's          could not assess the timeliness. Thus, 45
                              EMS" (page 6),                                 actions at 30 of the 35 facilities were
                        • “We were able to assess 45 of the 57               untimely. We could not determine the
                              actions at 30 facilities for timeliness and,   timeliness of the remaining 12 actions that
                              based on EMS criteria, none of the 45          occurred at 10 of the 35 facilities. The
                              was timely" (page 8),                          apparent inconsistency stems from the
                        • We could not determine the timeliness of           overlap that occurred during our analysis
                              the remaining 12 formal actions at 10          because facilities may have had more than
                              facilities because available information       one action. Thus, an action was classified
                              was not adequate" (page 8).                    as either untimely or not assessed. In
                        The total numbers of facilities represented in       contrast, a facility with more than one
                        the three bullets above are inconsistent (e.g.,      action could be included as both untimely
                        30 facilities, 35 facilities and 40 facilities).     and not assessed. We added clarifying
                        • Please clarify, correct and provide                language in the report.



                                                         28

     OECA Response,                  OECA Comments
#     Section/Page             (Attachment 1 of its response)                           OIG Response
                           accurate facility and enforcement action
                           totals.
10   Chapter 2,       "EPA Guidance Misinterpreted and                   OECA’s comment is directly contradicted
     pages 3-4        Inadequate, p. 6 - 7: OECA strongly disagrees      by its October 6, 2006, response, which
                      with OIG's statements that the EMS guidance        states “that its guidance documents are
                      that describes timely and appropriate              indefinite in regard to the timeliness
                      enforcement actions is inadequate. On the          standard.”
                      contrary, the EMS provides fully adequate
                      guidance on timely and appropriate                 Our report states that EPA has indistinct
                      enforcement responses for various types of         guidance to determine if actions are
                      violations, including those designated as SNC.     appropriate because the guidance does not
                                OIG acknowledges at page 6 that          state how expeditiously facilities should
                      "Flexibility is needed in any national             come back into compliance after an action
                      enforcement program" yet contradicts this          is taken.
                      statement by continuing to apply the EMS as a
                      set of rigid requirements (rather than flexible    Our report states that we believe the
                      guidance). The OIG fails to recognize that a       guidance is clear on the definition of
                      flexible enforcement response is necessary to
                                                                         “timely.” However, we were given
                      manage the NPDES enforcement program.
                                                                         inconsistent interpretations of what EPA
                      The need for flexibility is even greater today
                                                                         considers timely.
                      than when the guidance was first established
                      because of the significant expansion of the
                                                                         EMS states a timely formal enforcement
                      universe of regulated entities covered by the
                                                                         action must be taken by the end of the
                      NPDES program without a corresponding
                                                                         quarter following the SNC violation. For
                      increase in EPA resources.
                                                                         instance, if a facility experiences an SNC
                                On page 6, OIG states that "EMS
                                                                         violation in February of the first quarter, a
                      guidance is unclear regarding appropriateness
                                                                         formal enforcement must be taken by the
                      of enforcement actions . . ." OECA strongly
                                                                         administering agency by June 30 of the
                      disagrees - the EMS is very clear that an
                                                                         second quarter.
                      appropriate response should, ". . . reflect the
                      nature and severity of the violations, and,
                                                                         The October 6, 1999, memorandum
                      unless there is supportable justification, the
                                                                         provides clarification of existing EMS
                      response must be a formal enforcement action,
                                                                         language concerning timely and appropriate
                      or a return to compliance by the permittee . . .
                                                                         enforcement response to SNC. The memo
                      In the rare circumstances when formal
                                                                         represents the Water Enforcement
                      enforcement action is not taken, the
                                                                         Division’s official interpretation of the EMS
                      administrating agency is expected to have a
                                                                         language concerning timely and appropriate
                      written record that clearly justifies why the
                                                                         enforcement. OECA states that the memo
                      alternate action (informal enforcement action
                                                                         has not been rescinded. OECA has chosen
                      or permit modification) was more
                                                                         not to implement the memo, but the memo
                      appropriate" (see EMS, Chapter 11,
                                                                         is the current guidance. We are concerned
                      Attachment B, p .2 and page 7 of this
                                                                         that OECA is more concerned about current
                      document).
                                                                         practice than implementing current
                                On pages 6-7, the OIG states that
                                                                         guidance.
                      "EMS guidance is clear with regard to
                      timeliness" in one paragraph yet relies on a
                      subsequent October 6, 1999 OECA
                      memorandum in another paragraph to define
                      what is timely. The OIG relies on this
                      memorandum and not the EMS guidance that
                      reflects current practice. OECA agreed in its
                      October 2006 meeting with OIG to rescind the
                      1999 OECA memorandum that conflicts with
                      the EMS. OECA also stressed that 1999


                                                      29

     OECA Response,                       OECA Comments
#     Section/Page                 (Attachment 1 of its response)                          OIG Response
                         memo is not being implemented by
                         Headquarters and the Regions.
11   Chapter 2, page 4   OECA disagrees with the OIG's conclusions          Since the 1988 consent order, EPA and/or
                         on page 7 regarding whether the response to        Indiana have issued the following formal
                         East Chicago was appropriate. The                  actions: a pretreatment administrative order
                         implication that there was inadequate              in January 1993, a State-agreed order in
                         enforcement attention at this site between         November 2003 (not shown in OECA’s
                         1988 and 2004 is not valid (see attachment 2       attachment 2), and a pretreatment
                         for a PCS list of all formal and informal          enforcement action in 2004. A stipulated
                         actions at the facility, including available       court order was completed in October 1991.
                         compliance schedule milestones).                   All other actions included in the attachment
                                    It is unclear how the OIG calculated    are informal actions, such as phone calls
                         the range of excess pollutant loadings for East    and warning letters.
                         Chicago. It is unclear if the OIG used the
                         actual flow data taken from the DMRs during        Despite these actions, East Chicago had
                         its file review, or used design flow data from     12 consecutive quarters of effluent
                         PCS. Flow data are not available in OTIS.          violations from July 2002 through June
                                                                            2005. We evaluated the agreed order and
                                                                            determined it was untimely because it
                                                                            addressed violations from March and April
                                                                            2000. We could not make a determination
                                                                            on the pretreatment enforcement action
                                                                            taken in 2004 due to a lack of information
                                                                            in PCS and the data files.

                                                                            As stated in our report, we question the
                                                                            appropriateness of an enforcement action
                                                                            taken in 1988 that, according to OECA,
                                                                            “renders all effluent violations resolved
                                                                            pending since that time,” while the facility
                                                                            continues to violate permits limits and
                                                                            discharges to an impaired waterbody.

                                                                            For this facility, our estimate of pollutant
                                                                            loadings used the design flow. The report’s
                                                                            scope and methodology clearly lays out how
                                                                            we calculated the excess pollutant loadings.
12   Chapter 2, page 5   Insufficient Formal Actions at 22 Facilities, p.   See OIG response to comments 7 and 10
                         8: OECA is reluctant to accept this finding        above.
                         without further evaluation under a correct
                         interpretation of the guidance. This reluctance    We found that 22 facilities (21 facilities
                         is based on OECA's experience reviewing the        once Decherd is removed, see response to
                         facilities that the OIG examined in its August     comment #23) in SNC received insufficient
                         2006 draft report wherein its findings were        formal actions and 30 facilities did not
                         dramatically different than OIG's findings         receive timely actions. We stated that we
                         (e.g., 53 or 93% received an appropriate           could not judge the appropriateness of the
                         enforcement response). As explained in             actions because OECA had not clearly and
                         OECA's response to the August 2006 draft           unambiguously defined how quickly a
                         report, OIG's inaccurate interpretation of the     facility must come into compliance. OECA
                         EMS, failure to consider whether a facility        stated that 53 facilities received an
                         was in "resolved pending" status, and the          appropriate response, but it failed to state 53
                         exclusion of relevant information, results in      received a timely response.
                         inaccurate findings. The same problems exist
                         in this draft report.                              We considered whether a facility was in


                                                         30

     OECA Response,                   OECA Comments
#     Section/Page              (Attachment 1 of its response)                               OIG Response
                                                                             “resolved pending” as indicated by PCS or
                                                                             OTIS and OECA submitted data. We
                                                                             found that 13 facilities had received no
                                                                             formal action during our review period but
                                                                             had received actions prior to the start of our
                                                                             review period. We considered these actions
                                                                             in our review. However, we found that all
                                                                             13 facilities had unaddressed SNC
                                                                             violations during our review period.

                                                                             As stated in Chapter 3, OTIS data for
                                                                             Regions 4, 5, and 6 do not show facilities
                                                                             with active enforcement actions as resolved
                                                                             pending even though they are required to do
                                                                             so. Thus, OECA’s data systems do not
                                                                             show the correct enforcement status of
                                                                             facilities, as required by regulation.
13   Chapter 2, page 5   OECA bases its findings on follow-up                The fact that we disagree with OECA on
                         discussions with Regional staff - to OECA's         many of the facts and inferences in this
                         knowledge it does not appear that the OIG           report does not imply that we ignored EPA's
                         based its findings on follow-up discussions         views. On the contrary, we carefully
                         with Regional staff.                                reviewed all written comments and verbal
                                                                             comments made at the numerous meetings
                                                                             we attended with OECA and regional staff.
                                                                             Following completion of field work and
                                                                             submission of our discussion draft to OECA
                                                                             on May 26, 2006, we met with OECA
                                                                             and/or regional staff on June 7, June 29,
                                                                             October 24, October 26, and November 8,
                                                                             2006. Further, OECA submitted data on
                                                                             November 16 (in response to the November
                                                                             8 meeting with OECA and regional staff)
                                                                             that reflected consultation with regional
                                                                             staff.
14   Chapter 2, page 5   OECA disagrees with the statement that ". . .       See OIG response to comments 7 and 10
                         facilities with SNC violations must receive a       above.
                         formal enforcement action . . . or a return to
                         compliance within the quarter following the         Alabama and/or EPA should have issued a
                         SNC violation." OIG's statement, excerpted in       formal enforcement action by the end of
                         part, from the EMS implies that every SNC           September 2004. The informal action was
                         violation requires a formal enforcement             issued after the facility had been in SNC for
                         action. In fact, the EMS provides flexibility to    four consecutive quarters.
                         Regions and states to address SNC - the EMS
                         allows that an appropriate response may be
                         formal or informal, with justification, or that a
                         facility may return to compliance on its own.
                         As stated previously, the OIG's draft report
                         does acknowledge that informal actions are an
                         option; however, the report focuses solely on
                         whether EPA or the states took formal
                         enforcement action at the 57 facilities. By
                         only evaluating whether a formal enforcement
                         action had been taken, the evaluation ignores
                         the provisions in the EMS which allow an


                                                         31

     OECA Response,                      OECA Comments
#     Section/Page                (Attachment 1 of its response)                         OIG Response
                         informal enforcement response. The EMS
                         recognizes that an informal enforcement
                         response may be the most appropriate
                         response given the circumstances of the case.
                         Informal responses are used successfully by
                         EPA and states to address SNC violations.
                         • For example, Alabama issued a Notice of
                              Violation (NOV) to Centerville to address
                              chlorine total residual. The NOV resulted
                              in the permittee changing its treatment
                              technology for disinfection and
                              submitting a schedule for making such
                              change. Clearly, this informal action
                              induced the permittee to take corrective
                              action.
15   Chapter 2, page 5   The draft report fails to acknowledge the         We considered whether a facility was in
                         compliance status classification of "resolved     “resolved pending” as indicated by PCS or
                         pending," i.e., a permittee in compliance with    OTIS and OECA submitted data. We found
                         enforcement order and on track to achieve         that 13 facilities had received no formal
                         compliance pursuant to a compliance schedule      action during our review period but had
                         but has not yet achieved full compliance with     received actions prior to the start of our
                         permit conditions. OECA believes that the         review period. We considered these actions
                         OIG misinterpreted SNC violations for             in our review. However, we found that all
                         several facilities as being "unaddressed by       13 facilities had unaddressed SNC
                         enforcement action" when in fact, they were       violations during our review period.
                         addressed. Below are just a few examples of
                         facilities that were resolved pending during      As stated in Chapter 3 of our draft report,
                         OIG's 12 quarter review period :                  OTIS data for Regions 4, 5, and 6 do not
                                                                           show facilities with active enforcement
                                                                           actions as resolved pending even though
                                                                           they are required to do so. Thus, OECA’s
                                                                           data systems do not show the correct
                                                                           enforcement status of facilities, as required
                                                                           by regulation. To overcome this issue, OIG
                                                                           utilized OECA’s own extensive data
                                                                           collection efforts provided on November 16,
                                                                           2006.

                                                                           See OIG response to comments 16 to 19
                                                                           below.
16   Chapter 2, page 6   City of Attalla, AL - Alabama issued an           The consent decree issued on May 13, 2005,
                         administrative consent order on February 26,      is an escalation of an existing action. Thus,
                         2002, to this facility addressing violations of   it is unclear if this escalation is timely
                         effluent limits for BOD5 mass and                 according to the EMS criteria. However, it
                         concentration, TSS mass, TSS % removal,           should be noted that the February 26, 2002,
                         BOD5 % removal, pH, and Toxicity, and for         action, which preceded our evaluation time
                         Sanitary Sewer Overflows. The consent order       period, would be considered untimely since
                         required return to compliance within 1095         it addressed 27 sanitary sewer overflows
                         days upon the effective date of the order.        reported from January 1999 through
                         When problems persisted, Alabama filed a          October 2001 and 12 violations of
                         complaint in state court on February 10, 2003     biochemical oxygen demand and total
                         resulting in a consent decree which was           suspended solids from June through
                         finalized on May 13, 2005. Alabama did not        November 2001. This facility had 11
                         wait until February 2005 (1095 days) to           quarters of effluent violations from July


                                                         32

     OECA Response,                      OECA Comments
#     Section/Page               (Attachment 1 of its response)                             OIG Response
                         escalate formal enforcement when it believed         2002 through June 2005.
                         a stronger approach was necessary to assure
                         the facility will address its problems
                         expeditiously.
17   Chapter 2, page 6   Lafayette STP, TN- Tennessee issued an               The Facility Registry System, which relies
                         administrative order against this facility in        on PCS data, lists Lafayette as a major since
                         April 2002 to address violations of effluent         August 2002. (See Comment #23)
                         limits for Nitrogen, Ammonia, TSS, fecal
                         coliform, and DO. The order required                 The April 2002 administrative order did not
                         expansion of the plant (completed in 2004) to        address settleable solids. During our review
                         achieve compliance. The Lafayette STP was            period, the facility was in SNC for seven
                         not a major facility until the 3rd Quarter of        quarters for settleable solids that were not
                         2004. The STP continued to have problems             addressed by formal enforcement actions.
                         with Nitrogen, Ammonia, and Settleable               Moreover, this facility had three
                         Solids. It is not uncommon for violations to         consecutive quarters of SNC effluent
                         occur during plant expansion and start-up            violations for settleable solids after third
                         because it takes time for the activated sludge       quarter 2004, when OECA claims this
                         to form, to establish optimum activated sludge       facility became a major. Thus, even under
                         wasting rate, mix liquor concentration, and to       OECA’s facility classification, this facility
                         reach a steady state of operation. When              should have received a formal enforcement
                         violations persisted after the start-up of the       action before the end of second quarter
                         new plant and allowing for a period of time to       2005.
                         reach steady state of operation, Tennessee
                         issued a second administrative order in May
                         2006.
18   Chapter 2, page 6   Austin, IN- Per the PCS comment field for            Austin Municipal Wastewater Treatment
                         this facility, the state's 2002 order specifically   Plant had at least four consecutive quarters
                         addressed the NPDES schedule violations.             of compliance schedule violations after the
                         The only issue was that the order was not            February 2002 Consent Order. These SNC
                         properly linked in PCS to show that the              violations were unaddressed by enforcement
                         schedule violations were resolved pending.           actions. According to OECA, the state’s
                                                                              2002 Consent Order addressed the NPDES
                                                                              schedule violations that occurred after the
                                                                              order was issued. If issuing an
                                                                              administrative order resolves future
                                                                              compliance schedule problems, we do not
                                                                              understand how OECA has any facilities in
                                                                              SNC for compliance schedules violations
                                                                              and do not understand why it would be a
                                                                              category of SNC.
19   Chapter 2, page 6   Hillsboro, TX- The city of Hillsboro had             OIG’s analysis indicates that both of these
                         multiple effluent violations during 2002.            enforcement actions were untimely. The
                         Texas asked Region 6 to issue an                     March 2003 Administrative Order
                         administrative order addressing these                addressed violations from January 2002 to
                         violations while the state developed an              October 2002. The June 2003
                         enforcement action. An administrative order          Administrative Order addressed violations
                         was issued by EPA Region 6 on March 25,              from November 2002 to March 2003.
                         2003. When the city failed to respond
                         adequately to the order, Region 6 issued
                         another administrative order on June 12, 2003,
                         which also addressed continuing effluent
                         violations. The city submitted an acceptable
                         compliance plan on July 17, 2003, which was
                         monitored closely while Texas continued to


                                                          33

     OECA Response,                      OECA Comments
#     Section/Page                (Attachment 1 of its response)                           OIG Response
                         develop its enforcement action. The permittee
                         has been in resolved pending status from
                         April 2004 through the present except for the
                         quarter of April through June 2005 when they
                         had additional effluent violations. These
                         violations were addressed by a state
                         administrative order issued on July 14, 2006.
                         This action required the facility to come into
                         final compliance with effluent limits no later
                         than October 12, 2006. The facility complied
                         with this requirement and has had no further
                         violations to date.
20   Chapter 2, page 7   OIG's draft report still includes Michigan          OECA’s earlier comments only referred to
                         facilities (e.g., Flint Ink and Great Lakes         State-wide data system problems involving
                         Tissue) even though a known state-wide data         DMRs and compliance schedule reporting.
                         system problem, discussed at length with the        As a result of those comments, we
                         OIG in response to its August 2006 draft,           eliminated 25 of the 30 Michigan facilities
                         resulted in incorrect SNC determinations and        from our timeliness assessment. We
                         subsequent management decisions not to              retained five Michigan facilities that had
                         respond to some effluent violations. DMR            effluent violations in our timeliness review.
                         data input issues in Michigan existed from          If PCS coding issues extend to effluent
                         October 2003 through September 2005. As             violations, as OECA now suggests, we are
                         such, reports of violations occurring during        even more concerned about the integrity of
                         this timeframe, including non-reporting             EPA’s data systems. However, without
                         violations, are questionable. OECA believes         additional evidence of those newly reported
                         EPA Region 5 appropriately exercised its            data problems, we are retaining these five
                         enforcement discretion to make the decision         cases in the final report.
                         not to respond.
21   Chapter 2, page 7   • For example, the 12 consecutive quarters          OECA reported that the known State-wide
                              of effluent violations cited in OIG's draft    data system problems involved only
                              report at Flint Ink were actually toxicity     reporting issues such as discharge
                              violations that occurred for one quarter       monitoring reporting and compliance
                              (February and March 2000). As explained        schedule reporting. Flint had 12 quarters of
                              to the OIG on several occasions, these         effluent violations during our review period.
                              violations continued to appear due to          Flint was still in SNC for effluents
                              improper coding in PCS. Further,               violations in September 2006 according to
                              Michigan worked with Flint Ink to find         EPA’s data system, ECHO. OECA’s data
                              the source of the toxicity and discovered      provided on November 16, 2006, did not
                              an issue with a water additive. Flint Ink's    state that the 12 quarters of effluent
                              permit was subsequently modified to            violations were toxicity violations from
                              withdraw permission to use the additive        February and March 2000. OECA’s
                              and the company ceased use. A multi            response is contradictory. OECA states that
                              media inspection conducted by Region 5         the violation is due to improper coding.
                              in 2006 confirmed cessation of the             Then it states there was a toxicity problem,
                              additive and that the company was              and that it was addressed and resolved
                              moving a majority of its process out of        through State action. From OECA’s
                              state thus eliminating all discharges to       response and our analysis, we believe Flint
                              surface waters. The toxicity violations        was in SNC and did not receive timely
                              were addressed and resolved by state           action.
                              action (compliance assistance and permit
                              modification), and the general non-
                              reporting violations were a direct result of
                              Michigan's data system issues.



                                                         34

     OECA Response,                   OECA Comments
#     Section/Page              (Attachment 1 of its response)                         OIG Response
22   Chapter 2, page 7 •    The two consecutive quarters of mercury      A timely enforcement action should have
                            violations at Great Lake's Tissue cited in   been taken by Michigan to address the
                            OIG's draft report were accurately           mercury effluent violations at Great Lakes
                            portrayed. However, since they occurred      Tissue by June 2005, which is prior to the
                            at the very end of OIG's review period,      end of our evaluation period.
                            OECA does not understand how the
                            conclusion was reached that no action
                            was taken. PCS indicates, and the Region
                            has confirmed, that Michigan referred the
                            case to the state Attorney General in July
                            of 2005.
23   Chapter 2,        OIG completely disregarded OECA's October         We removed Decherd (TN0020508) from
     pages 7-9         2006 comments to the August 2006 draft            our sample. We included Decherd, as well
                       report relating to a number of minor facilities   as the other facilities OECA questions, in
                       in Regions 4 and 6 that were inaccurately         our sample because EPA databases showed
                       included in his analysis as majors- these         that facility was a major facility in SNC
                       facilities were not classified as majors during   throughout our review period. However,
                       the analysis and therefore not subject to SNC     our findings regarding the other six facilities
                       screening during all or part of the OIG's         are still valid.
                       evaluation period .
                                  Region 4 has reconfirmed that 3        We obtained data on the status of the six
                       facilities in Tennessee (Lafayette STP,           facilities from the Facility Registry System.
                       Decherd City STP and Munford Lagoon) were         According to Office of Environmental
                       not major facilities during all or part of the    Information staff and data documentation,
                       OIG's 12 quarter review period. Lafayette did     the Facility Registry System pulls
                       not become a major facility until the 3rd         information from PCS. The Facility
                       quarter of 2004 when the plant expanded.          Registry System would only show that a
                       Two other Region 4 facilities in TN (Decherd      facility is a major if PCS was updated and
                       City STP and Munford Lagoon) were not             also considered it a major. The Facility
                       classified as major facilities until the 4th      Registry System shows the status of facility
                       Quarter of 2004 and the 4th Quarter of 2005,      (major or minor) and the date in which the
                       respectively. Neither of these facilities had     last change was made in the Facility
                       SNC violations reported in the QNCR during        Registry System. Office of Environmental
                       the OIG evaluation period and therefore           Information staff verified that the date the
                       should not have been subject to SNC               information was last updated would only
                       evaluation by the OIG (see attachment 2 for       change if the data in PCS changed.
                       letters from Region 4 files documenting status
                       change dates).                                    The Facility Registry System confirms that
                                  Region 6 has reconfirmed that 4        Lafayette STP (TN0020877) has been a
                       facilities in Texas (New Boston, SWS              major since August 2002. Even using
                       Holdings, Texas Dept. of Criminal Justice,        OECA’s data interpretation, Lafayette had
                       and Windermere Utility) were not major            three consecutive quarters of SNC effluent
                       facilities during the OIG's 12 quarter review     violations for settleable solids after
                       period. Although PCS is the legal database of     becoming a major. This facility did not
                       record for the NPDES program, dates of status     receive a timely formal enforcement action
                       change are not tracked in PCS - the date          to address those SNC violations.
                       associated with a change in facility status
                       from a minor to a major is manually tracked in    According to the Facility Registry System,
                       files at the Regional office. For three of the    the Texas Dept. of Criminal Justice
                       four Texas facilities (New Boston, SWS            (TX0031577) has been a major since
                       Holdings, Texas Dept. of Criminal Justice),       November 2001; New Boston (TX0026018)
                       the OIG's conclusions were based on dates it      has been a major since May 2002; SWS
                       found in the Facility Registry System (FRS) -     Holdings (TX0070955) has been a major
                       an integrated, comprehensive, multi-media         since August 2002; Windermere


                                                      35

     OECA Response,                      OECA Comments
#     Section/Page               (Attachment 1 of its response)                            OIG Response
                         data system maintained by EPA's Office of           (TX0074853) has been a major since March
                         Environmental Information (OEI) . OEI staff         2004; and Munford Lagoon (TN0062499)
                         confirmed that FRS does not track dates             has been a major since September 2004.
                         associated with a change in facility status - it
                         tracks dates of permit application receipt and      Windermere had three consecutive quarters
                         issuance. Thus, it is not possible to determine     of SNC violations after March 2004 that
                         when a facility became a major by looking in        were not addressed with formal
                         the FRS. For example, the August 30, 2002           enforcement actions so it did not receive
                         date that the IG based its conclusion on for        timely action. Similarly, Munford Lagoon
                         SWS Holdings was the date the permit                had three consecutive quarters of SNC
                         application was received, not the date the          violations after September 2004 that were
                         facility became a major. FRS is not the legal       not addressed with formal enforcement
                         database of record for NPDES program. It            actions.
                         should be noted that the new ICIS-NPDES
                         data system will improve on the current             As additional evidence, we spoke with the
                         functionality available in PCS by providing a       consulting engineer for the City of New
                         "begin date" and "end date" to track the            Boston, who stated that New Boston has
                         conversion. In addition, as a result of the State   been a major for at least 10 years.
                         Review Framework project, the Integrated
                         Data for Enforcement Analysis System
                         (IDEA) now contains quarterly "snapshots" of
                         the major/minor and active/inactive facility
                         status of the NPDES permitted universe. This
                         feature is an additional source of historical
                         information that OECA now can access as
                         needed.
                                    For one of the four Texas facilities
                         (Windermere Utility), the OIG based its
                         conclusion that the facility was a major on the
                         fact that the facility has a design flow of 2
                         MGD. EPA's definition of a major municipal
                         facility is a facility with a design flow > 1
                         MGD, however, this facility is not a
                         municipality. It has an SIC code of 6552 and
                         is therefore subject to EPA's definition of
                         major (which is a complex formula
                         considering a number of factors) for an
                         industrial facility (see attachment 2 for letters
                         from Region 6's files documenting status
                         change dates).
24   Chapter 2, page 9   Untimely Enforcement at 30 Facilities, p. 8 -       See comments 25 to 27 below.
                         9: OECA is reluctant to accept this finding
                         because of OIG's misinterpretation of the
                         EMS timeliness standard.
25   Chapter 2, page 9   As noted above, the OIG relies on a 1999            We relied on the 1999 memorandum
                         memorandum in spite of OECA's explanation           because it provides the Water Enforcement
                         that the timely standard in the memorandum is       Division’s official interpretation of the EMS
                         not being implemented. OECA stated in               language concerning timely and appropriate
                         October 2006 that the timely standard needs to      enforcement. OIG does not believe
                         be clarified and we will rescind the 1999           rescinding the memo will clarify the
                         memo.                                               timeliness standard. On the contrary,
                                                                             rescinding the memo will make the
                                                                             timeliness standard open to interpretation.



                                                         36

   OECA Response,                   OECA Comments
#    Section/Page             (Attachment 1 of its response)                               OIG Response
26 Chapter 2, page 9 The OIG ignores flexibility in the EMS                Our evaluation does not advocate using the
                     language regarding timeliness (see Chapter II,        EMS as regulatory requirements. It simply
                     Attachment B). The purpose of guidance, such          uses OECA’s own program principles to
                     as the EMS, is to provide recommendations             assess how well the Agency is issuing
                     and set program expectations - not establish          timely and appropriate formal enforcement
                     regulatory requirements (see Appalachian              actions for long-term SNC violations. In
                     Power Co. v. EPA, 208 F. 3d - 1015 (D.C.              our view, OECA needs to have criteria in
                     Cir. 2000) and Barrick Goldstrike Mines Inc .         place so that it can provide adequate
                     v. Browner, 215 F.3d 45 (D .C . Cir. 2000),           oversight to region and State programs.
                     finding that EPA guidance cannot have the
                     binding effect of a rulemaking). The OIG
                     continues, however, to treat the
                     recommendations in the EMS as rigid
                     requirements on the Agency.
27 Chapter 2,        The OIG fails to take into account the time           See OIG response to comments 7 and 10
   pages 9-10        needed to work with a state, gather more              above.
                     evidence to support a case, allocate resources
                     to an action and negotiate complex corrective         The OIG’s evaluation applies the
                     measures to resolve noncompliance. The OIG            programmatic principles set forth in the
                     does not acknowledge that state enforcement           EMS to determine how well EPA regions
                     processes and timelines must be considered in         and States are fulfilling their enforcement
                     determining reasonable timeliness. To                 responsibilities. The EMS represents
                     illustrate, many states have the authority to         OECA’s own enforcement principles for
                     issue monetary penalties within a compliance          EPA regions and States. The EMS also
                     order. Issuance of such an order may require          provides the flexibility for each
                     longer time frames than in the EMS due to             administering agency to develop
                     public comment and participation
                                                                           management procedures which are best
                     requirements, or because a hearing is
                                                                           suited to its operations and resources with
                     scheduled, or because of complex negotiation
                                                                           the goal of most efficiently translating
                     schedules. Thus, judgments on what is a
                     reasonable time table for action must                 compliance information into timely and
                     ultimately be case-specific in consideration of       appropriate enforcement action. Thus, the
                     complex compliance problems that may                  flexibility desired by OECA, to consider
                     require long term studies and complex                 many of the issues mentioned, is implicitly
                     injunctive relief (see Barnes Memo, Criteria          considered in the EMS. We appreciate the
                     for Direct Federal Enforcement in Delegated           need for flexibility; however, we believe
                     States, at pages 21 - 25).                            that OECA needs to have criteria in place so
                                                                           that it can provide appropriate oversight to
                                                                           region and State programs.
28   Chapter 2,         •   For example, it is incorrect for OIG to        EPA issued an Administrative Order against
     page 10                conclude on page 8 of the draft report that    ConocoPhillips Company on August 14,
                            EPA's Administrative Order against             2003, to address effluent violations for
                            ConocoPhillips was untimely. There are         selenium beginning July 2002. The action
                            complex selenium water quality standard        was untimely because it was not taken by
                            and permitting issues associated with this     December 2002 (the end of the next
                            facility. EPA was in extensive                 quarter), as required by EMS. According to
                            negotiations with state partners, as well as   PCS, the facility continued to exceed
                            Fish and Wildlife Service and the facility     selenium permit limits through June 2005.
                            to resolve the complex permitting issues.
                            The flexibility inherent in EPA's
                            enforcement guidance is critical to being
                            able to account for such complex
                            circumstances.



                                                       37

     OECA Response,               OECA Comments
#      Section/Page         (Attachment 1 of its response)                             OIG Response
29   Chapter 2,     •   For example, the OIG states on page 8 of       As stated in the report, we could not
     page 10            the draft report that it could not determine   determine the timeliness of the remaining
                        timeliness of 12 formal actions involving      12 formal actions at 10 facilities because
                        10 facilities because the available            available information was not sufficient.
                        information was not adequate.                  Specifically, the enforcement actions were
                        Furthermore, the OIG states on page 9 of       not directly linked to the SNC violation
                        the draft report that for Columbiana           addressed or when the SNC violations
                        WWTP, AL, timeliness could not be              occurred. Without this information, we
                        assessed because the action was not            could not determine whether the action was
                        linked to the violation. OECA does not         timely.
                        understand this statement given that
                        Alabama provided compliance and                Alabama did have files on all eight facilities
                        enforcement files containing a copy of a       from our sample. The Consent Decree was
                        Consent Order, Complaint and Consent           in the file. However, the Consent Decree
                        Decree for this facility to the OIG during     simply accelerates an existing compliance
                        its onsite file review on February 6 - 7,      schedule for a Consent Order issued on
                        2006 and the OIG indicates that                March 21, 2002. The language in the
                        Alabama's files were 100% complete in          document does not directly link the action
                        Table 3-1 on page 11 of the draft report.      to an SNC violation. Therefore, we could
                                                                       not address timeliness.
30   Chapter 2,     It is not clear why the IG did not take            The OIG evaluated whether EPA conducted
     page 10        advantage of the Watch List for its analysis.      (1) timely enforcement on NPDES major
                    The Watch list and associated data provides        facilities in SNC, and (2) proper oversight
                    much better insight related to case-specific       over regions and States. The Watch List is
                    circumstances and OECA's tracking of               derived from EPA’s data systems. To avoid
                    enforcement timeliness. The OIG was                errors, we utilized the original data in
                    provided access to the Watch List, but it is       EPA’s data systems. Our methodology is
                    unclear whether it was used.                       presented in Appendix A.
31   Chapter 2,     Timely Enforcement Helps Minimize Excess           See OIG response to comment 2 above.
     page 10        Pollutant Discharges, p. 9: See OECA
                    response at page 3, At A Glance, concerning
                    the accuracy of the pollutant reduction
                    estimate presented here.
32   Chapter 2,     Recommendation 2-1, p. 9: Clarify and              Rescinding the guidance without a
     pages10-11     enforce EMS guidance to ensure that timely         satisfactory replacement will not “ensure
                    and appropriate formal enforcement actions         that timely and appropriate formal
                    are taken against NPDES facilities in SNC.         enforcement actions are taken against
                                                                       NPDES facilities in SNC.” If OECA
                    OECA Response: OECA concurs with the               rescinds the 1999 memorandum, it will need
                    recommendation to clarify its NPDES                to explain how it will unambiguously define
                    timeliness guidance. As discussed with OIG,        timely and appropriate enforcement.
                    OECA will rescind the 1999 OECA
                    memorandum in conflict with the EMS and            We understand OECA’s concerns about the
                    will discuss this with the Regional NPDES          use of the word “enforce” in the
                    Enforcement Branch Chiefs at the national          recommendation. We will change the word
                    NPDES meeting in April, 2007. OECA                 “enforce” to “implement” in the final report.
                    disagrees, however, with the OIG's
                    commendation to "enforce EMS guidance."
                    The EMS is a management tool which
                    facilitates evaluation and performance review.
                    It is not a set of rigid regulatory requirements
                    which EPA imposes on the states or Regions
                    as the use of the term "enforce" suggests.



                                                    38

   OECA Response,                 OECA Comments
#    Section/Page          (Attachment 1 of its response)                           OIG Response
33 Chapter 3,     Chapter 3: Inadequate Records and Reporting       An accurate history of the compliance and
   page 11        Inhibit EPA Oversight of NPDES Major              enforcement activities at a facility is
                  Facilities, p. 10 – 13. Compliance and            important for oversight and making future
                  Enforcement Files Are Incomplete, p. 10: The      enforcement decisions. The lack of
                  authorized states are responsible for keeping     accurate information inhibits EPA’s ability
                  accurate records. As such, EPA does not           to provide effective oversight to NPDES
                  require that all information be stored in         major facilities and thus protect human
                  duplicate in the Regional offices. The OIG        health and the environment from excess
                  appears to assume that EPA should have hard       levels of toxic or harmful pollutants.
                  copies of all state files. This redundancy is
                  neither practical nor efficient. EPA has the      We recognize that the State Review
                  ability to request information at any time and    Framework may help address file
                  has the ability to audit state files. The State   deficiencies at States noted in this report.
                  Review Framework (SRF) established a file         However, only the active oversight and
                  review protocol that will be implemented in       management of the State Review
                  all 50 states by the end of FY 2007. When a       Framework process will result in
                  state is not keeping accurate records (e.g.,      improvements. It is not clear what steps
                  inspection reports or enforcement actions), the   EPA plans to take to improve its oversight
                  SRF process will identify this and formal         and management in this area.
                  recommendations and milestones will be
                  made to ensure better file management. To the
                  extent that violations or problems noted in
                  files are not in the databases, the SRF process
                  will also address this.
34 Chapter 3,     EPA's Enforcement Data Systems Are                Our findings about NPDES program
   page 11        Inaccurate, p. 11 - 12: OECA does not agree       enforcement data systems being inaccurate
                  with the statement that EPA's data systems are    go well beyond our findings in Michigan.
                  inaccurate. The OIG provides no context           Our report contains several examples of
                  supporting this broad statement but rather        EPA’s data system problems, including
                  appears to make this statement based upon a       several that EPA has acknowledged
                  specific, known problem in one state              elsewhere.
                  (Michigan). The OIG should indicate that
                  EPA requires states to enter at least 95% of      EPA’s data systems do not accurately
                  discharge monitoring report (DMR) and             reflect the SNC status of facilities. Once a
                  effluent limit data (which generate SNC           formal enforcement action is issued for an
                  status). Historically there are only two states   SNC violation, a facility should be
                  that do not meet or come very close to this       designated as “resolved pending” for that
                  goal - Michigan, and Oregon. As EPA               violation, according to Title 40, Code of
                  provides CWA data to hundreds of thousands        Federal Regulations, Section 123.45.
                  of users via the ECHO web site, it is             However, OECA states that Regions 4, 5,
                  unfortunate that the OIG report classifies the    and 6 (the three regions reviewed) do not
                  data systems as inaccurate because there are      designate facilities in “resolved pending.”
                  data translation issues in two of fifty states.   Thus, facilities in these regions may appear
                  The ECHO web site clearly caveats these           to remain in SNC status in EPA’s data
                  problems. These caveats should have first         systems for a long time despite operating
                  alerted OIG staff that Michigan data should be    with an existing enforcement action.
                  avoided and could not be used to draw
                  accurate conclusions about facility SNC           EPA staff also stated that once a facility
                  status. In addition, OECA, and the Regional       receives a violation for submitting DMRs
                  office pointed out to the OIG staff on            late, that violation will continually show as
                  numerous occasions that the Michigan data         a violation in EPA’s data systems until
                  should not be used in the OIG study; however,     regions or States manually correct the
                  the OIG decided to include the flawed data        problem.
                  anyway. In regard to the SNC status in other


                                                   39

     OECA Response,                   OECA Comments
#     Section/Page             (Attachment 1 of its response)                           OIG Response
                      states evaluated, the OIG audit points out that   The State of Michigan has had data
                      many facilities that are flagged in the data      problems. We could not evaluate the
                      systems as having SNC violations are actually     timeliness of enforcement actions at 25 of
                      covered under enforcement orders (thus are        the 30 Michigan facilities due to the State
                      technically "resolved pending"). EPA is aware     wide data problem. Even though we did not
                      that many Regions and states prefer to keep       evaluate timeliness of enforcement actions
                      the SNC flag on to keep pressure on the           at the 25 facilities, we did report on the
                      facility to complete enforcement order            obvious oversight problems that exist from
                      milestones. OECA believes that states should      a State having system problems for years.
                      have the flexibility to manage SNC data as the
                      states determine is appropriate. Keeping the      The ECHO Website notes the following
                      SNC flag on is more informative to the public     data accuracy issues.
                      (e.g., it puts more pressure on the                    1. A number of EPA-authorized
                      owner/operator of the plant to come back into              NPDES facilities in Region 10 do
                      compliance).                                               not have up-to-date permit limits
                      • Revise the title of this section to read                 entered in PCS.
                           "SNC and violation data are inaccurate in         2. DMR non-receipt is not being
                           Michigan" - this revised language is                  tracked for California Clean Water
                           consistent with what OECA has already                 Act NPDES permits.
                           posted on its web site.                           3. In Indiana, many non-receipt
                                                                                 violations are erroneous and are
                                                                                 currently being investigated with
                                                                                 resolution pending.
                                                                             4. In Delaware, Virginia, and West
                                                                                 Virginia, some pH violations are in
                                                                                 error.

                                                                        No revision is necessary.
35   Chapter 3,       Many Violations Found During Inspections          The steps taken by OECA are encouraging;
     page 12          not Reported in PCS, p. 12: This is an issue      however, OECA must implement a quality
                      that has concerned OECA, and we have been         assurance program to ensure that violations
                      working with the Regions and states to            found during inspections are reported in
                      improve such reporting since 2003. As noted       PCS.
                      in OECA's October 2006 response, the
                      number of reported violations rose from 220
                      in 2003 to 4,441 in 2005. The OIG Report
                      fails to acknowledge substantial progress
                      made by OECA in this area. EPA has also
                      been responsive to state requests for
                      clarification on reporting standards by
                      finalizing more clear guidelines in regard to
                      how such information should be reported to
                      PCS. To ensure EPA has a full record of
                      violations found, EPA has also proposed to
                      the states that violation reporting be expanded
                      to non-major facilities.
36   Chapter 3,       Bacteria not Reported as SNC, p. 12: The          See OIG response to comment 38 below.
     page 12          permit parameters that are "eligible" to be
                      automatically tracked are specifically noted in
                      the RNC regulation, so EPA would be unable
                      to simply begin tracking these as RNC or
                      SNC without a regulatory change. Despite this
                      obstacle, OECA has piloted additional



                                                     40

     OECA Response,                  OECA Comments
#     Section/Page             (Attachment 1 of its response)                           OIG Response
                      management controls to assist in tracking
                      bacteria violations at direct dischargers. For
                      direct discharge facilities, the Watch List
                      process provides Regions and states with the
                      capability to flag facilities that have
                      continuing exceedances - which includes
                      bacteria and other pollutants that are not
                      evaluated for SNC. While only some Regions
                      and states are required to report under this
                      pilot, other Regions and states use the Watch
                      List as way to monitor these other parameters
                      that are not included in the regulation. OECA
                      is considering whether this pilot should be
                      extended. OECA is also developing new
                      reporting capabilities that will enable users to
                      automatically access these violations. In
                      OECA's October 2006 comments to the OIG,
                      EPA's existing NPDES SNC policy was
                      described which includes the discretion to flag
                      "any other violation of concern" (such as
                      bacteria) as SNC. OECA is working with an
                      EPA-state advisory group to supplement the
                      existing NPDES SNC policy to address
                      significant violations from wet weather point
                      sources (Combined Sewer Overflows,
                      Sanitary Sewer Overflows, Concentrated
                      Animal Feeding Operations and stormwater)
                      which include the most significant sources of
                      pollutants (including bacteria) not covered by
                      the existing SNC Policy .
37   Chapter 3,       Recommendations 3-1, page 12: Implement a           OECA’s existing activities (State Review
     page 12          quality assurance program addressing the            Framework, the Watch List, and ECHO) do
                      completeness of compliance and enforcement          not represent a quality assurance program.
                      files, accuracy of EPA data systems, and            The Watch List and ECHO do not appear
                      reporting in PCS the violations found during        sufficient to address completeness of files,
                      inspections.                                        data accuracy, and reporting inspection
                      • OECA Response: OECA concurs and                   violations. Moreover, the State Review
                           believes that its existing processes -         Framework may help States address these
                           which include SRF, the Watch List and          issues, but not necessarily EPA regions.
                           ECHO - provide a reasonable amount of          OIG is not convinced that these existing
                           quality assurance. These substantial           efforts will sufficiently address our
                           efforts were not discussed in the OIG          recommendation. OECA needs to
                           report. In regard to inspection-related        implement a quality assurance program
                           violations, EPA continues to negotiate         addressing the completeness of compliance
                           with states to obtain this reporting, and is   and enforcement files, accuracy of EPA
                           just beginning a new Regional pilot to         data systems, and reporting in PCS the
                           ensure that EPA-determined violations          violations found during inspections.
                           are accurately tracked.
38   Chapter 3,       Recommendation 3-2, page 12: Establish              If OECA believes these actions will
     pages 12-13      controls allowing EPA leadership to identify        establish controls so EPA leadership can
                      significant noncompliance by bacteria-only          identify SNC by bacteria-only violators for
                      violators for enforcement action.                   enforcement action, we will accept their
                      • OECA Response : OECA concurs and is               response. We will need to obtain an action
                           pursuing this in three other ways that may


                                                      41

    OECA Response,             OECA Comments
#    Section/Page       (Attachment 1 of its response)                           OIG Response
                     have the same intended effect of             plan and milestone dates for when these
                     addressing bacteria without the              actions will occur.
                     significant resource expenditure it would
                     take to re-open the table of parameters
                     found in the QNCR regulation at 40 CFR
                     Part 123 .45 : 1) use of Watch List pilot
                     criteria which includes bacteria, 2)
                     develop better analytical tools that can
                     assist the Regions and states in easily
                     flagging these problems and tying the
                     problems to watershed quality, and 3)
                     continue to provide discretion for
                     Regions and states to elevate serious
                     bacteria violations to SNC status via the
                     existing NPDES SNC policy . In addition,
                     to improve public access to information
                     about such violations, OECA will be
                     adding effluent report charting (including
                     bacteria violations) to its ECHO database
                     in 2007. In addition, the most significant
                     sources of bacteria (combined sewer
                     overflows, sanitary sewer overflows,
                     concentrated animal feeding operations,
                     and storm water) are included in an effort
                     underway by OECA's Office of Civil
                     Enforcement to develop a wet weather
                     SNC policy.




                                               42

                                                                             Appendix E

                                   Distribution

Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Regional Administrator, Region 4
Regional Administrator, Region 5
Regional Administrator, Region 6
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Principal Deputy Administrator for Enforcement and Compliance Assurance
Director, Office of Regional Operations
Director, Water Enforcement Division, Office of Enforcement and Compliance Assurance
Office of Enforcement and Compliance Assurance Followup Coordinator
Regional Audit Followup Coordinator, Region 4
Regional Audit Followup Coordinator, Region 5
Regional Audit Followup Coordinator, Region 6
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                            43

